<html>
<title> - DISPENSATION OF FUNDS FROM THE SOUTHERN NEVADA PUBLIC LANDS MANAGEMENT ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
DISPENSATION OF FUNDS FROM THE SOUTHERN NEVADA PUBLIC LANDS MANAGEMENT 
                                  ACT

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

            Thursday, December 4, 2003, in Las Vegas, Nevada

                               __________

                           Serial No. 108-79

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2004
90-750 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officiotripp
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, December 4, 2003.......................     1

Statement of Members:
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
        Prepared statement of....................................     5
    Porter, Hon. Jon, a Representative in Congress from the State 
      of Nevada, Prepared statement of...........................    56

Statement of Witnesses:
    Abbey, Robert V., Nevada State Director, Bureau of Land 
      Management, U.S. Department of the Interior................    43
        Prepared statement of....................................    45
    Carpenter, Hon. John C., Nevada State Assembly, District 33, 
      Elko, Nevada...............................................     8
        Prepared statement of....................................     9
    Decker, Donald J., Managing Member, Century Gold, LLC., 
      Spring Creek, Nevada.......................................    37
        Prepared statement of....................................    39
    Ellison, Hon. John, Commissioner, Elko County Board of 
      Commissioners, Elko, Nevada, Prepared statement of.........    26
    Goicoechea, Hon. Pete J., Nevada State Assembly, District 35, 
      Eureka, Nevada.............................................    14
        Prepared statement of....................................    15
    Johnson, Freeman K., Assistant Director, Department of 
      Conservation and Natural Resources, State of Nevada........    19
    Nannini, Hon. Mike, Commissioner, Elko County Board of 
      Commissioners, Elko, Nevada................................    16
        Prepared statement of....................................    18
    Roberts, Dr. William E., Superintendent, Nye County School 
      District, Pahrump, Nevada..................................    24
        Prepared statement of....................................    25
    Rulffes, Dr. Walt, Deputy Superintendent/CFO, Clark County 
      School District, Clark County, Nevada......................    22
        Prepared statement of....................................    23
    Trippet, Larie, President, Dust Devils Motorcycle Club, and 
      Member, Northwest Sierra Front Great Basin Resource 
      Advisory Council, Bureau of Land Management, Reno, Nevada..    33
        Prepared statement of....................................    35
Additional materials supplied:
    Guinn, Hon. Kenny C., Governor, State of Nevada, Statement 
      submitted for the record...................................    21


  OVERSIGHT HEARING ON ``THE DISPENSATION OF FUNDS FROM THE SOUTHERN 
                  NEVADA PUBLIC LANDS MANAGEMENT ACT''

                              ----------                              


                       Thursday, December 4, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                           Las Vegas, Nevada

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
the Clark County Commission Chambers, Las Vegas, Nevada, Hon. 
Jim Gibbons presiding.
    Present: Representative Gibbons.
    Mr. Gibbons. I would like to administer the oath because 
this is something that the Committee requires us to do, an oath 
before you give your testimony. So if you will all stand and 
raise your right hand. We will assume that Mr. Rulffes, when he 
gets here, will also take the oath.
    [Witnesses sworn.]

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons.  Let the record show that each of the Panel 1 
witnesses have affirmed to the oath.
    Let me begin just by kind of setting the format and the 
rules for testimony here today. First of all, we are going to 
have some little timing lights because we have a number of 
witnesses and we want the full testimony of all of the 
witnesses to get in; however, we try to limit opening remarks 
to five minutes. Your full written testimony will be submitted 
for the record, so you may feel free to summarize what you want 
to say when you get here. That way, we will have some time to 
ask questions of the witnesses in each of the panels as well.
    But the lights you see here, you will have a green light 
which means go. You will have a yellow light which gives you 
one minute to sum up and then a red light that says your five 
minutes is up. Try, try to be within the five minutes just out 
of courtesy to everybody else. Now, I am not going to cut you 
off. You may talk until I assume that you are going to go close 
to 10 minutes and then I am going to cut you off, OK. I will be 
generous because my opening statement is something more than 
five minutes. But what we all have to say here today is 
critically important. It is important for the State of Nevada, 
it is important for the people of this county and the future, I 
think, of the children in this great state.
    I want to thank all of you, especially all of the witnesses 
today, for attending this important hearing. This is the House 
Resources Subcommittee on National Parks, Recreation and Public 
Lands and the hearing we are having today is the Dispensation 
of Funds from the Southern Nevada Public Lands Management Act.
    Now, I want to commend Senator Richard Bryan--former 
Senator Richard Bryan--and Senator John Ensign for their hard 
work in creating the original Southern Nevada Public Lands 
Management Act legislation. It was a compromise bill, which I 
supported, and one which clearly put in place a mechanism to 
help address the demands on the enormous growth here in Clark 
County. Given my support of this Act, I am here to say that in 
my opinion the time has come to modernize the Southern Nevada 
Public Lands Management Act by amending it to reflect the 
current demands on the infrastructure of our great state.
    I want to consider these facts before we begin. Since 1998, 
approximately 5600 acres of public land in Clark County have 
been sold under that Act to accommodate the growth needs here 
in Clark County. Now these sales have rewarded the Federal 
Government with more than $690 million in revenue. Of that 690 
million, 85 percent goes back to the Federal Government for 
purposes which I will be able to discuss shortly; however, 10 
percent goes to Southern Nevada Water Authority for our water 
infrastructure needs. And finally, the remaining 5 percent--
yes, only 5 percent--goes to help fund our educational needs in 
Nevada.
    Now before we begin discussing the educational needs of our 
State, such as the needs for new schools, higher salaries for 
our teachers so we can recruit and hire the best and brightest, 
and new textbooks for our schoolchildren, let us look at what 
85 percent of the $690 million is being used for. The revenues 
gained by the Federal Government under this Act are used to 
purchase more land in Nevada across the State. They are used to 
support wildlife and to care for existing public lands, parks 
and trails located exclusively here in Clark County.
    Now since 1998 the Federal Government has sold off, as I 
said earlier, 5600 acres. Unfortunately, in the same time frame 
the Federal Government has crisscrossed Nevada acquiring 156 
square miles of Nevada. That is about 105,000 acres of land. 
That means that they have got a net gain of about 100,000 acres 
for the government.
    Ladies and gentlemen, that brings me to my first question, 
one which I am going to submit to you, and that is, what is the 
benefit to Nevada having more and more of its land owned and 
regulated by the Federal Government? Representing every county 
in Nevada keeps me busy. Traveling throughout the State, I have 
the opportunity, and actually the pleasure, to hear from a lot 
of Nevadans. Since first being elected to Congress in 1996, no 
single issue has generated more interest, more commentary and 
more passion from those that I meet than the enormous stake the 
Federal Government in our state has. Right now the Federal 
Government controls nearly 87 percent of Nevada. I am often 
asked by my colleagues in Washington, well what kind of a 
neighbor is the Federal Government, and I am forced to tell 
them, the Federal Government is not our neighbor, it owns the 
neighborhood that we live in. It is the landlord surrounding 
all of us.
    Now I understand and appreciate the fact that the original 
legislation placed emphasis on the Federal Government using the 
revenues from these sales to acquire environmentally sensitive 
lands in Clark County. And it did emphasize that the 
acquisitions did occur predominately in Clark County.
    Well this leads me to the next question that we all must be 
asking. Why should we assume that the Federal Government can do 
a better job than the gentlemen sitting here in front of us or 
the people in the State or the State of Nevada in caring for 
its own lands? I do not argue that we have some environmentally 
sensitive lands throughout the State of Nevada.
    Environmental groups visit my office quite regularly. They 
are always equipped with proposals and maps depicting areas 
they deem to be sensitive areas. I oftentimes have to disagree 
with their proposals, because unlike many of these groups, I 
spend a lot of time with my family hiking, camping, hunting and 
enjoying the natural wonders of the State. And sometimes I want 
to protect more of Nevada land than the environmental groups 
do. But that certainly does not lead me to think that we ought 
to hand control of those lands over to the Federal Government 
for what we are told is protection. I guess the difference 
between me and some of these environmental groups is, I just 
have far greater confidence, far greater respect for local 
control and the ability of the people and the State of Nevada 
to take care of its own land. As a lifelong resident, I refuse 
to subscribe to the premise that Federal ownership constitutes 
better care for our state lands.
    Now I am sure that the folks who reside in California will 
say they believe Lake Arrowhead was worthy of protection, but 
under Lake Arrowhead's ``Federal protection,'' locals were not 
allowed to thin surrounding forest lands and the underbrush and 
the Federal Government refused to do it, could not do, would 
not do it. And tragically we saw what happened--91,000 acres of 
fire severely environmentally impacted--or destroyed--were 
destroyed by fire. Excuse me. And severe environmental impact 
on air quality, water quality and wildlife. Homes were 
destroyed, property destroyed, lives were destroyed, all at the 
cost of more than $42 million. And a few years back, a Federal 
managed controlled burn in New Mexico got out of hand ending up 
burning some 48,000 acres of the Santa Fe National Forest 
causing nearly $1 billion in damage.
    Now, I believe that our local BLM under Bob Abbey--and he 
is here and he will testify today--do an outstanding job with 
the people and the resources they have. But I think the amount 
of territory that they have under their portfolio today is so 
extensive that they are limited by the number of people and the 
amount of resources to properly care for it. And given my 
serious concerns over the amount of land the Federal Government 
continues to acquire in Nevada, I will be proposing an 
amendment to this Southern Nevada Public Lands Management Act 
that will modify the allocations of dollars received from 
future land sales in Clark County.
    Ladies and gentlemen, the time has come to begin placing a 
higher emphasis on Nevada needs and a bit less on the desires 
of the Federal Government. The amendment I will be introducing 
next year will do two things. First, it will seek to adjust the 
85 percent allocation that the Federal Government currently 
receives down to 55 percent. Again, these funds are currently 
used to purchase and acquire significantly greater allotments 
of land in Nevada than the Federal Government is actually 
selling off.
    Now if you will look at this bill--just another piece of 
trivia. About 4400 acres were acquired in Clark County, 5600 
acres were sold off in Clark County, 100,000 acres were 
acquired outside of Clark County. So there is a bit of a 
difference here in how the money is being allocated. All I want 
to ask is that in the future land acquisitions take place in 
Clark County as required under this Act. This Act as written 
and carried out today, the money is used for upkeep and 
maintenance of existing public lands as currently kept in Clark 
County to address and meet their needs and the public land 
demands here in Clark County.
    So I guess the question is, why use the money to purchase 
more lands around the State without giving the Federal 
Government a revenue stream to maintain the lands newly 
acquired from the monies generated by this Act? The 30 percent 
that is taken from the Federal Government's coffers will 
instead go to Nevada's most pressing need, and that is 
educating our children.
    Consider these numbers. Under the Southern Nevada Public 
Land Act today, the State of Nevada has received about $29 
million toward our education needs over the last four years. 
That money goes into a restricted trust account that is not 
allowed to be touched except for the interest earned on that 
money. So it is protected and used only sparingly.
    If the original formula that I have proposed would have 
been in this Act, the State education would have received well 
over $240 million. So each year we would have been getting 
instead of $4 million, somewhere in the neighborhood of about 
$32 million a year, which would make a significant difference 
every year in the education of our kids, especially when you 
start looking at the infrastructure needs. I think this is 
significant funding for our schools and educators. Think of it 
this way, if the government is selling small parcels of land in 
Clark County, then going out and acquiring enormous chunks of 
land in our rural counties, what does that do to our rural 
counties? Some of these rural counties already have 90 to 98 
percent federally owned and managed, and when you take the very 
little taxable private property they have off the taxpayer 
rolls, how will you then pay for their schools? How will you 
then pay for their teachers and their textbooks and the 
education of their children like you pay for here in southern 
Nevada?
    Now I doubt anyone can argue that enabling the Federal 
Government to purchase more land in Nevada when they already 
have 90 percent of our state is more important than the 
education of our children. Under my proposal, Federal land 
managers will still have hundreds of millions of dollars to do 
the important environmental upkeep and oversight in Nevada. It 
is my hope that the Federal Government can then prioritize the 
use of their stake from the Southern Nevada Public Lands 
Management Act and utilize it by maintaining our existing 
public lands in Nevada rather than acquiring more. Since 1998 
under this Act the Federal Government has experienced a net 
gain, as I said earlier, of about 156 square miles of Nevada 
lands. To put that into perspective, that is about the same 
size as the Las Vegas Valley here. You can understand that 
taking that much out of taxpayer rolls in some of these smaller 
counties is a tremendous burden on these small counties.
    Clearly--and I mean this--clearly we need to revisit this 
legislation so we can do better to address Nevada's growing 
needs. I will leave to each of the witnesses, who I thank for 
taking their time from their busy schedule to be here today, 
this simple question for you. How does increasing Federal 
ownership of Nevada lands help Nevada's schoolchildren and 
their educational needs? And if you believe that the education 
of our children is not as important as supplying water to these 
communities and if you believe education of our children is not 
as important as protecting the environment, I would like you to 
tell me why you think so.
    We have a growing State, we have growing problems which 
include families with children who are seeking the best 
education possible. We have added 27,000 additional children 
this year who were not here last year. We have built 65 new 
schools here in Clark County alone since the enactment of this 
legislation, and the Federal Government is taking control of 
more land and reducing the taxpayers' capability of paying for 
those schools and that education.
    So I submit to this Committee and to all Nevadans that 
educating our children should be our first priority rather than 
allowing the Federal Government to further control this state 
we love and we all call home.
    I will conclude by saying under my proposal we can still 
accomplish our capital improvements. We can still accomplish 
funding our parks, our trails and protecting natural areas that 
we deem so important. We can still accomplish our conservation 
initiatives. We can still accomplish the acquisitions of land 
under the Burton-Santini Act and we can still accomplish our 
multi-species habitat conservation plans. Each of those efforts 
and their funding would not be affected if we simply concluded 
that $207 million used for acquisition of more lands can be 
significantly reduced and put into education. This is not a 
choice, ladies and gentlemen, between educating our children or 
protecting the environment and beauty of Nevada. We can, and we 
should, do both.
    With that, I will end my statement.

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    Ladies and Gentlemen, thank you for attending this important 
congressional hearing today to discuss the Southern Nevada Public Lands 
Management Act of 1998--both where we have come since its enactment, 
and where we want to go.
    First, I would like to commend former Senator Richard Bryan and 
Senator John Ensign for their hard work in creating this legislation. 
It was a compromise bill--which I supported--and one that clearly put 
in place a mechanism to help address the demands of our enormous growth 
here in Clark County.
    Given my support of this Act, I am here to say that, in my opinion, 
the time has come to modernize the Southern Nevada Public Lands 
Management Act by amending it to reflect the current demands of our 
great State.
    Consider these facts:
    Since 1998, approximately 5,600 acres of public lands in Clark 
County have been sold under the SNPLMA to accommodate our growth needs.
    These sales have awarded the federal government with more than $690 
million in revenue.
    Of that $690 million, 85 percent goes back to the federal 
government for purposes I'll discuss shortly.
    Another 10 percent goes to the Southern Nevada Water Authority for 
our water infrastructure needs. And finally, the remaining 5 percent--
ONLY FIVE PERCENT--goes to help fund our education needs in Nevada.
    Now, before discussing the education needs of our State, such as 
the need for new schools, higher salaries for our teachers, so we can 
recruit and hire the best and brightest, and new textbooks for our 
schoolchildren, let's look at what the 85 percent of the $690 million 
is being used for.
    The revenues gained by the federal government under this Act are 
used to purchase more of Nevada's land across the State, support 
wildlife, and to care for existing public lands, parks and trails 
located exclusively in Clark County.
    Again, since 1998, the federal government has sold off 
approximately 5,600 acres of land.
    Unfortunately, however, in that same time frame, the federal 
government has crisscrossed Nevada and acquired 105,000 ACRES of land--
a net gain of more than 100,000 acres for the federal government.
    Ladies and Gentlemen, this brings me to the first question for this 
Committee and the residents of Nevada to consider: What is the benefit 
to Nevadans in having more and more and more of our land owned and 
managed by the federal government?
    Now, representing every county in Nevada keeps me busy traveling 
throughout this great State so that I can hear from my fellow Nevadans.
    Since first being elected to Congress in 1996, no single issue has 
generated more interest, commentary and passion from those I meet with 
than the enormous stake the federal government has on our State.
    Right now, the federal government manages nearly 87 percent of 
Nevada.
    I'm often questioned by my colleagues in Congress as to what kind 
of neighbor the federal government is with Nevadans.
    I tell them that the federal government is not our neighbor--the 
federal government owns THE NEIGHBORHOOD!!!
    Now I understand and appreciate the fact that the original 
legislation placed emphasis on the federal government using the revenue 
from these sales to acquire ``environmentally sensitive'' lands.
    The legislation also emphasized that these acquisitions should 
occur predominately in Clark County.
    Well, that leads me to the next question: Why should we assume that 
the federal government does a better job caring for Nevada's lands than 
Nevadans?
    I don't argue that we have some environmentally sensitive lands 
throughout this State. Environmental groups visit my office quite 
regularly, equipped with maps depicting areas they deem to be sensitive 
lands.
    I often disagree with their maps because unlike many of these 
groups, I spend time on the ground in Nevada. I drive throughout our 
State--I hike, camp, hunt and take my kids out to enjoy the natural 
wonders of this State.
    Sometimes, I want to protect more of our Nevada land than the 
environmental groups do! But that certainly doesn't lead me to think 
that we ought to hand control of those lands over to the federal 
government for what we are told is ``protection.''
    I guess the difference between me and some of these so-called 
environmentalists is that I have more respect for local control and for 
the ability of Nevada to take care of its own land.
    As a life-long resident of Nevada, I refuse to subscribe to the 
premise that federal ownership constitutes better care for our State's 
lands.
    I'm sure the folks who reside in California will say that they 
believe Lake Arrowhead was worthy of protection. But under Lake 
Arrowhead's ``Federal'' protection--locals were not allowed to thin 
surrounding forestland and underbrush--and the federal government 
refused to do it. And, tragically, we saw what happened.
    Over 91,000 acres destroyed by fire, severe environmental impact on 
air quality, water quality and wildlife--homes destroyed, property 
destroyed and lives destroyed--all at a cost of more that $42 
MILLION!!!
    A few years back, a federally managed controlled burn in New Mexico 
got out of control, ended up burning some 48,000 acres of the Santa Fe 
National Forest, causing nearly $1 BILLION in damage!
    Now, I believe our local BLM under Bob Abbey often does the best 
they can, given their resources and manpower. But our resources--
Nevada's resources--which include our citizens and our land--do not 
need that much oversight by the federal government.
    And given my serious concerns over the amount of land the federal 
government continues to acquire in Nevada, I will be proposing an 
amendment to the SNPLMA that will modify the allocations of dollars 
received from future lands sales in Clark County.
    The time has come to begin placing a higher emphasis on Nevada's 
needs, and a bit less on the federal government's desires.
    The amendment I will be introducing early next year will do two 
things. First, it will seek to adjust the 85 percent revenue allocation 
that the federal government currently receives to 55 percent.
    Again, these funds are currently used to purchase and acquire 
significantly greater allotments of land in Nevada than the federal 
government is actually selling off.
    Second, I will ask that ALL future land acquisition take place 
solely in Clark County.
    Again, as the Act is written and carried out to this day, the 
monies used for upkeep and maintenance of existing public lands is 
currently kept in Clark County to address their public lands' needs.
    So why use the money to purchase more land around the State--
without giving the federal government a revenue stream to maintain the 
lands newly acquired from the monies generated by this Act?
    The 30 percent that is taken from the federal government's coffers 
will instead go to help fund Nevada's most pressing need--our education 
system.
    Consider these numbers:
    Under the SNPLMA today, the State of Nevada has received 
approximately $30 million towards our education needs over the last 
four years.
    If the original formula reflected the changes I hope to make in 
this Act, our State education would have received well over $240 
MILLION!
    Folks, this is significant funding for our schools and educators.
    Think of it this way: The federal government is selling small 
parcels of land in Clark County, then going out and acquiring enormous 
chunks of land in our rural counties.
    Some of these rural counties are already 90 to 98 percent federally 
owned and managed.
    When you take the very little taxable property they have left off 
the property tax rolls, how will you then pay for THEIR schools, THEIR 
teacher salaries, and THEIR textbooks?
    Now, I doubt anyone can argue that enabling the federal government 
to purchase more land in Nevada--when they already have nearly 90 
percent of our State--is more important than our children's education.
    Under my proposal, federal land managers will still have hundreds 
of millions of dollars to do important environmental upkeep and 
oversight in Nevada.
    It is my hope that the federal government can then prioritize the 
use of their take from the SNPLMA, and utilize it by maintaining our 
existing public lands in Nevada, rather than acquiring more.
    Since 1998, under this Act, the federal government has experienced 
a net gain of approximately 100,000 acres of Nevada's land. That's one 
hell of a deal for the BLM, don't you think?
    Clearly--CLEARLY we need to revisit this legislation so that we can 
better address Nevada's growing needs.
    And I'll leave each of the witnesses--who I thank for taking time 
from their busy schedules to be here today--with this simple question: 
How does increased federal ownership of Nevada help Nevada's 
schoolchildren and their education needs?
    We have a growing State. We have a growing population, which 
includes families with children--who are seeking the best education 
possible for their children.
    We have 27,000 kids in school this year who were not here last 
year. We have 65 new schools in Clark County alone since enactment of 
the SNPLMA.
    And the federal government is taking control of more and more of 
our land.
    I submit to this Committee--and to all Nevadans--that educating our 
children should be our FIRST priority--- rather than allowing the 
federal government to take further control of this state we love--and 
that we call home.
    I'll conclude by saying that under my proposal, we can still 
accomplish our capital improvements. We can still accomplish funding 
our parks, trails and natural areas. We can still accomplish our 
conservation initiatives. We can still accomplish the acquisitions 
under Burton-Santini. And, we can still accomplish our multi-species 
habitat conservations plans.
    Each of those efforts and their funding would not be affected if we 
simply conclude that the $207 MILLION used for acquisitions of Nevada's 
land since 1998 can be significantly reduced.
    This is not a choice between educating our children or protecting 
Nevada's environment and natural beauty. We can and should do both.
                                 ______
                                 
    Mr. Gibbons.Let me also remind that all witnesses here 
today will be asked to provide written testimony and all 
witnesses who want to submit written testimony may do so for 
this Committee. It will remain open for approximately 10 days, 
within which you can submit any written testimony for those of 
you that are not speaking orally here today.
    We also are going to ask questions to each of you, and we 
will at the end of each panel, probably because of the 
testimony that will be generated here today, have additional 
questions that we will submit to you in writing and ask that 
you get back to us within the 10-day period as well. So those 
will be in addition to the oral questions that you may get 
asked here today.
    Let me say and introduce the first panel for everybody. We 
have with us an extra person who is not listed on your rolls, 
and that is Commissioner John Ellison from Elko County. He is 
here as a witness. He is going to submit his testimony for the 
record, but we will ask questions of John and the other members 
from Elko. We have also the Honorable John C. Carpenter, Nevada 
State Assembly, District 33, from Elko County. We have Mr. Pete 
Goicoechea, Nevada State Assembly from District 35, that is 
Eureka, Nevada, and a whole lot of other places in Nevada. We 
have the Honorable Mike Nannini, who is a County Commissioner 
from Elko, Nevada, as well. We have Mr. Freeman Johnson, 
Assistant Director, Department of Conservation and Natural 
Resources from the State of Nevada. We have Dr. Walt Rulffes. 
He is the Deputy Superintendent/CFO from Clark County School 
District; and we have Dr. William Roberts, Superintendent, Nye 
County School District from Pahrump, Nevada.
    What I will do is start on my left, your right, and work 
our way down the line. So we will start with Mr. Carpenter. 
John, the floor is yours. Welcome. We look forward to your 
testimony.

  STATEMENT OF THE HONORABLE JOHN C. CARPENTER, NEVADA STATE 
              ASSEMBLY, DISTRICT 33, ELKO, NEVADA

    Mr. Carpenter. Thank you, Mr. Chairman. My name is John 
Carpenter, I am a member of the Nevada State Legislature having 
served for 17 years. My Assembly District covers all of Elko 
County and the northern part of Humboldt County. I was also a 
member of the Elko County Commission for 14 years and served as 
Chairman for four years.
    I am here today to discuss an important and contentious 
issue for rural Nevada. We all know that with the huge amount 
of money being generated by the sale of BLM land in southern 
Nevada and the subsequent purchase of private land in Elko and 
Humboldt Counties we are facing a huge dilemma. Loss of mining, 
loss of livestock production, loss of tax base, loss of 
economic value, loss of proper husbandry on lands purchased and 
loss of our rural culture and way of life are just a few of the 
reasons we believe the Southern Nevada Public Lands Management 
Act needs to be amended.
    The latest poll distributed by the Elko Daily Free Press in 
April 2003 shows overwhelming opposition to the Federal 
Government purchasing more land. Two of the questions were 
especially telling. One question was, should the government be 
buying or selling land in Nevada? Eleven percent were in favor 
of the Federal Government buying land but 89 percent said the 
government should be selling its land. Another question was, 
should local governments support or oppose the Federal 
Government in purchasing more land in Nevada? Eighty-seven 
percent said that local government should oppose the Federal 
Government land purchase. Only 13 percent said that local 
government should support the land purchases.
    Along with my testimony I offer Senate Joint Resolution 2 
of the last session of the Nevada Legislature which passed both 
houses of the Legislature by unanimous vote. SJR2 asks for the 
Southern Nevada Public Lands Management Act to be amended to 
use some of the monies for water development on public lands, 
which goes right along for the resolution from the Nevada 
cattlemen which asks for the amendment of the Southern Nevada 
Public Land Management Act to allow for a more constructive use 
of funds generated to include maintenance of purchased 
properties and by improving lands already in the public domain.
    Some would say local government should not interfere when a 
person wants to sell their land to the government. I submit to 
you the local government has every right to interfere when 
their tax base is reduced, productivity of the land is 
diminished and the Federal Government is able to exert more 
control over the citizens of the county.
    The Southern Nevada Public Land Management Act as now being 
administered makes for a speculator's paradise. Speculators are 
purchasing property at market value, or a little over, and then 
trying to sell it to the government for a ridiculous sum. 
Amending the Southern Nevada Public Land Management Act to 
provide for use of money for improvement and rehabilitation of 
existing lands, using a greater percentage for existing 
infrastructure in Clark County and using at least 50 percent 
for public schools in Nevada will eliminate speculation, 
stabilize rural counties, improve Clark County and help our 
schoolchildren. None should be used to purchase more private 
land.
    Thank you for allowing me to testify. I will be happy to 
answer any questions. Thank you, sir.
    Mr. Gibbons. Thank you, Mr. Carpenter.
    We will turn now to Assemblyman Goicoechea.
    [The prepared statement of Mr. Carpenter follows:]

             Statement of John C. Carpenter, Assemblyman, 
                  District 33 Nevada State Legislature

    Mr. Chairman and Members of the Committee:
    My name is John Carpenter. I am a member of the Nevada State 
Legislature, having served for 17 years. My Assembly District covers 
all of Elko County and the northern part of Humboldt County. I was also 
a member of the Elko County Commission for 14 years and served as 
Chairman for four years.
    I am here today to discuss an important and contentious issue for 
rural Nevada. We all know that with the huge amount of money being 
generated by the sale of BLM land in southern Nevada, and the 
subsequent purchase of private land in Elko and Humboldt Counties, we 
are facing a huge dilemma. Loss of mining, loss of livestock 
production, loss of tax base, loss of economic value, loss of proper 
husbandry on lands purchased, and loss of our rural culture and way of 
life are just a few of the reasons we believe the Southern Nevada 
Public Lands Management Act needs to be amended.
    The latest poll distributed by the Elko Daily Free Press in April 
2003 shows overwhelming opposition to the federal government purchasing 
more land. Two of the questions were especially telling:
          One question was, ``Should the government be buying or 
        selling land in Nevada?'' 11 percent were in favor of the 
        federal government buying land, but 89 percent said the 
        government should be selling its land.
          Another question was, ``Should local government support or 
        oppose the federal government in purchasing more land in 
        Nevada?'' 87 percent said that the local government should 
        oppose federal government land purchases. Only 13 percent said 
        the local government should support the land purchases.
    Along with my testimony, I offer Senate Joint Resolution 2 of the 
last session of the Nevada Legislature which passed both houses of the 
Legislature by a unanimous vote. S.J.R. 2 asks for the Southern Nevada 
Public Lands Management Act (SNPLMA) to be amended so as to use some of 
the monies for water development on public lands, which goes right 
along with the resolution from the Nevada Cattlemen's Association which 
asks for the amendment of SNPLMA to allow for more constructive use of 
funds generated to include maintenance of purchased properties and by 
improving lands already in the public domain.
    Some would say local government should not interfere when a person 
wants to sell their land to the government. I submit to you the local 
government has every right to interfere when their tax base is reduced, 
productivity of the land is diminished, and the federal government is 
able to exert more control over the citizens of the county.
    SNPLMA as now being administered makes for a speculators' paradise. 
Speculators are purchasing property at market value or a little over 
and then trying to sell it to the government for a ridiculous sum.
    Amending the SNPLMA to provide for use of money for improvement and 
rehabilitation of existing lands, using a greater percentage for 
existing infrastructure in Clark County, and using at least 50 percent 
for public schools in Nevada will eliminate speculation, stabilize 
rural counties, improve Clark County, and help our schoolchildren. None 
should be used to purchase private land.
    Thank you for allowing me to testify and I will be happy to answer 
any questions.
                                 ______
                                 
     Senate Joint Resolution No. 2--Committee on Natural Resources
    SENATE JOINT RESOLUTION--Urging the Secretary of the Interior, the 
Secretary of Agriculture and Congress to take certain actions 
concerning expenditures of money for restoration of and water 
developments on the public lands in Nevada.
    WHEREAS, In recent years, wildfires have caused extensive damage to 
the public lands of this state by destroying thousands of acres of 
public lands used for economic, wildlife and recreational purposes, and 
have increased the threat of infestation of exotic annual grasses and 
noxious weeds which may, if not contro1led, cause further degradation 
of the lands, deterioration of wildlife habitat, erosion, and 
diminished water quality; and
    WHEREAS, Responsible management and preservation of the public 
lands of this state require restoration of the public lands through 
various means, including, without 1imitation, reseeding, planting 
indigenous grasses and shrubs, combating exotic annual grasses and 
noxious weeds and reducing the encroachment or density of certain 
plants for purposes of fire suppression; and
    WHEREAS, Because of a lack of adequate water developments on the 
public lands of this State, wildlife and livestock on those public 
lands have been forced to concentrate near the limited number of water 
developments thus jeopardizing the ecological health of the public 
lands; and
    WHEREAS, Responsible management and preservation of the public 
lands of this state require increasing the number of water developments 
on the public lands of this state so that the wildlife and livestock on 
those public lands will be properly dispersed; and
    WHEREAS, Proper management and preservation of the public lands and 
waters of this state are critical as these lands support a wide variety 
of vital activities that are integral to the economic success and 
enjoyment of the natural resources of this State, including ranching, 
mining and recreation, and are a unique and important historical, 
cultural, and environmental resource that must be maintained and 
preserved for the use and appreciation of current and future Nevadans; 
and
    WHEREAS, The continued economic success of this State, existence of 
wildlife diversity in this state and enjoyment derived from the natural 
resources of this state depend on the maintenance of healthy ecosystems 
within the public lands and waters of this State; and
    WHEREAS, The Southern Nevada Public Land Management Act of 1998, 
Pub. L. 105-263, 112 Stat. 2343, authorizes the Secretary of the 
Interior to expend a portion of the proceeds of the sale or exchange of 
certain public lands in Clark County for conservation initiatives on 
certain public lands in Clark County; and
    WHEREAS, It would greatly benefit and protect the ecosystems on the 
public lands In Clark County if the Secretary of the Interior expended 
the money authorized for such conservation initiatives to pay for 
restoration of and water developments on certain public lands in Clark 
County; and
    WHEREAS, The Federal Land Transaction Facilitation Act, 43 U.S.C. 
2301 et seq., which addresses the sale or exchange of public lands in 
areas other than certain public lands in Clark County, requires the 
Secretary of the Interior and the Secretary of Agriculture to use the 
proceeds of such sales or exchanges for certain purposes, but the Act 
does not specifically designate any money for restoration of and water 
developments on the public lands in the areas in which the sales or 
exchanges occurred; and
    WHEREAS, It would greatly benefit and protect the ecosystems on the 
public lands in the areas of this state where public lands are sold or 
exchanged pursuant to the Federal Land Transaction Facilitation Act, 43 
U.S.C. 2301 et seq., if the Act authorized the Secretary of the 
Interior and the Secretary of Agriculture to expend a portion of the 
proceeds obtained from such sales or exchanges for restoration of and 
water developments on the public lands in those areas; now, therefore, 
be it
    RESOLVED BY THE SENATE AND ASSEMBLY OF THE STATE OF NEVADA, 
JOINTLY, That the members of the Nevada Legislature hereby urge the 
Secretary of the Interior to expend the money authorized pursuant to 
the Southern Nevada Public Land Management Act of 1998, Pub. L. 105-
263, 112 Stat. 2343, for conservation initiatives on certain public 
lands in Clark County to pay for restoration of and water developments 
on such public lands in Clark County; and be it further
    RESOLVED, That the members of the Nevada Legislature hereby urge 
Congress to amend the Federal Land Transaction Facilitation Act, 43 
U.S.C. 2301 et seq. to authorize the Secretary of the Interior and the 
Secretary of Agriculture to expend money obtained pursuant to the Act 
to pay for restoration of and water developments on the public lands in 
the areas of Nevada where public lands are sold or exchanged pursuant 
to the Act; and be it further
    RESOLVED, That the Secretary of the Senate prepare and transmit a 
copy of this resolution to the Vice President of the United States as 
the presiding officer of the United States Senate, the Speaker of the 
House of Representatives, the Secretary of the Interior, the Secretary 
of Agriculture, the Director of the Bureau of Land Management, and each 
member of the Nevada Congressional Delegation; and be it further
    RESOLVED, That this resolution becomes effective upon passage.
                                 ______
                                 
Resolution 3
Private Land and Environmental Management

                     NEVADA CATTLEMEN'S ASSOCIATION

                     NEVADA WOOLGROWERS ASSOCIATION

                            JOINT CONVENTION

                              RENO, NEVADA

                           NOVEMBER 21, 2003

    WHEREAS, The Southern Nevada Public Lands Management Act (SNPLMA) 
has, through the sale of public lands in the Las Vegas Valley, the 
ability to generate an enormous amount of money; and
    WHEREAS, Proposals for the use of that money for the purchase of 
private lands in Northern Nevada have included parcels priced at many 
times market value; and
    WHEREAS, Such pricing and resulting sales even greatly discounted 
will have a inflationary and destabilizing effect upon all private land 
in Nevada; and
    WHEREAS, Because SNPLMA monies can be used for acquisition of 
environmentally sensitive lands, rather than for restoration, private 
parcels in need of crucial restoration are not practically eligible for 
consideration under the Act; and
    WHEREAS, the Nevada Cattlemen's Association and Nevada WoolGrowers 
Association support a no net loss of private land policy,
    THEREFORE, BE IT RESOLVED the Nevada Cattlemen's Association and 
the Nevada WoolGrowers Association urge for the amendment of the SNPLMA 
in order to alleviate the destabilizing effects of the current Act, by 
paying fair market value for acquired lands.
    THEREFORE, BE IT FURTHER RESOLVED that the Nevada Cattlemen's 
Association and WoolGrowers Association urge for the amendment of the 
SNPLMA to allow for more constructive use of funds generated to include 
the maintenance of purchased properties and by improving lands already 
in the public domain.

Directed to:
    Nevada's Congressional Delegation
    The SNPLMA Working Group
    The SNPLMA Governing Board
    Governor Guinn
    Nevada Association of Counties (NACO)
    All County Commissioners
    RAC
                                 ______
                                 

    [An attachment to Mr. Carpenter's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T0750.001
    

  STATEMENT OF THE HONORABLE PETE J. GOICOECHEA, NEVADA STATE 
             ASSEMBLY, DISTRICT 35, EUREKA, NEVADA

    Mr. Goicoechea. Good morning, Chairman Gibbons, and I will 
address the balance of the members of the Committee as they 
will be reading this record. For the record, I am Assemblyman 
Pete Goicoechea. I was a county commissioner for Eureka County 
for 16 years, now serving in the Legislature representing 
Assembly District 35, which is all or part of seven counties in 
northern Nevada.
    The concerns you hear this morning are very real. The 
amount of money being generated by the Southern Nevada Land 
Management Act makes everyone in northern Nevada, or anywhere 
in Nevada, a willing seller. County officials end up opposing 
constituents on something that is very sacred in rural Nevada, 
and that is private property rights. But these county officials 
are only trying to maintain their tax base. PET payments, 
payment equal to taxes, PILT payments, payment in lieu of 
taxes, are not the answer, although that makes county 
government whole, it does nothing to capture those dollars that 
are normally generated by the private sector. We have had some 
analysis done. Those private sector dollars usually go through 
a community three to seven times, especially if they are ag 
dollars, I think it is around seven times. Those dollars are 
the lifeblood of these rural communities.
    We urge you to amend the Southern Nevada Land Management 
Act. Establish a geographic area comprised of Clark County and 
areas of adjacent counties that are clearly benefiting from 
their proximity to the Las Vegas Valley. Some examples would be 
Pahrump. We are going to have Tooley Springs, Coyote Springs. 
These definitely should be incorporated into this geographic 
area that would be in place for the acquisition of 
environmentally sensitive lands.
    With 87 percent of Nevada under Federal land management 
agencies, it makes no sense to burden the American taxpayer 
with the cost of managing more lands as these lands are 
acquired under the Southern Nevada Land Management Act. Why not 
instead use these funds to enhance the lands already under 
public land management? We have riparian areas, uplands, pinyon 
juniper encroachment where the thinning is of great benefit. In 
Lincoln County we have got a real problem and southern White 
Pine County, which I also represent. We have wildland/urban 
interface. The protection of those areas are consuming a vast 
amount of money. Let us use some of the money out of the 
Southern Nevada Land Management Act to address those issues. We 
can contract ARC, cultural, real estate transactions that would 
in fact benefit the BLM as a whole. Let us use the money from 
the sale of public lands to enhance public lands, not erode 
rural tax bases and rural economies.
    Acquisitions outside of this established geographic area 
should be handled on a case-by-case basis legislatively as they 
have been in the past. It does not matter if we are talking 
about the Jarbidge Cemetery, the Maiden Grave; again, that is 
handled on a case-by-case through Congress. So I ask you, 
please, let us amend the Act and exclude the areas in northern 
Nevada that truly are being impacted by these land 
acquisitions.
    Thank you. Any questions?
    Mr. Gibbons. Thank you, Assemblyman Goicoechea.
    We turn now to Commissioner Mike Nannini from Elko County. 
Mike, the floor is yours. Welcome.
    [The prepared statement of Mr. Goicoechea follows:

       Statement of The Honorable Pete Goicoechea, Assemblyman, 
                     35th District, State of Nevada

    Chairman Radanovich, Members of the Committee, thank you for the 
invitation to speak before you today.
    I represent one of Nevada's largest and most rural Assembly 
Districts. Assembly District 35 encompasses much of rural northern 
Nevada, including Eureka, Pershing and White Pine Counties and portions 
of Churchill, Humboldt, Lander and Washoe Counties. The rural character 
of this Assembly District says much about my perspective on public 
lands management in general and the Southern Nevada Public Lands 
Management Act (SNPLMA or Act) in particular.
    The SNPLMA is clearly a unique and historically important piece of 
legislative work. It benefits the State of Nevada by: 1) supporting 
Nevada's education programs; 2) helping ensure a sound economic future 
for southern Nevada's communities; and 3) providing a mechanism to 
balance southern Nevada's economic needs with resource protection and 
conservation. Unfortunately, the benefits of SNPLMA are tempered by 
where you reside in the State.
    The SNPLMA is a source of great distress to those who live and work 
in rural Nevada. The fundamental bone of contention is that the Act 
imposes a legislative remedy for a localized urban problem that 
disproportionately impacts residents elsewhere in the State. Within the 
boundaries of southern Nevada (delineated by the October 2002 
Amendment), federal lands are privatized for economic development while 
other private lands are transferred to public ownership for 
preservation and conservation. Outside of the SNPLMA boundary only half 
the equation applies, no lands are privatized, while environmentally 
sensitive (substitute, economically viable) lands are transferred to 
restrictive public ownership. This inequity has already exacerbated 
economic hardships in rural Nevada by creating a political and 
administrative situation that struggling local governments can ill 
afford. Matters are destined to get worse as land acquisitions erode 
rural tax bases and undermine local businesses. Outside a generic 
requirement for consultation during federal land acquisitions, the 
SNPLMA fails to acknowledge the needs and authorities of any unit of 
local government or regional governmental entity outside of Clark 
County.
    From a national perspective, new land acquisitions will further 
test the capacity of American taxpayers to support the growing burden 
of public lands management. Federal land management agencies are 
already responsible for improving the condition of 87 percent of 
Nevada's land area. These agencies remain sadly underfunded and 
understaffed. The cost to the health of our forests, grasslands and 
watersheds is dear. The recent Interior budget impasse is testament to 
our nation's limited ability to provide adequate long-term funding for 
management of existing federal lands, let alone new acquisitions.
    Rural Nevadans also fear the SNPLMA's indirect tie to water. The 
Act provides funding to Southern Nevada Water Authority for developing 
water transmission infrastructure. In regions of the State targeted by 
Southern Nevada Water Authority for water acquisitions, the SNPLMA is 
perceived to be a mechanism for accessing rural ground water resources. 
The Act fails to address the local economic and environmental 
consequences of exporting water from rural areas.
    With these concerns in mind I urge the Committee to pursue 
amendments to the SNPLMA as follows:
    1.  Limit expenditure of SNPLMA funds for federal land acquisitions 
to a fixed geographical area in southern Nevada;
    2.  Identify all units of local government potentially affected by 
SNPLMA federal land acquisitions within the boundary and clearly define 
their roles under the Act;
    3.  Provide for a full accounting of future costs and benefits 
incurred by a) potentially impacted local and regional businesses, b) 
affected units of local government, and c) federal agencies for all 
SNPLMA acquisitions; and
    4.  Earmark SNPLMA expenditures outside the geographical boundary 
for enhancing management of existing federal lands and facilities.
    In summary, the SNPLMA was designed to enhance economic and social 
conditions in urban Clark County. Neither by content nor by name does 
the Act pretend to address the needs of Nevada's rural communities. If 
there is a need to dispose of federal lands and acquire environmentally 
sensitive lands in areas outside of southern Nevada, then I strongly 
recommend a separate legislative effort that can meet the needs of 
those communities. Many of us have long argued that the SNPLMA would 
generate enough money to buy most of the valuable private lands in 
rural northern Nevada. Given that the Round 4 Auction on November 6th 
grossed over $127 million to bring the SNPLMA coffers to well over 
half-a-billion dollars, there is already enough money on the table to 
turn all targeted landowners into willing sellers, and for enterprising 
sellers to turn the United States Treasury Special Account their way.
                                 ______
                                 

           STATEMENT OF THE HONORABLE MIKE NANNINI, 
            COMMISSIONER, ELKO COUNTY, ELKO, NEVADA

    Mr. Nannini. Chairman Gibbons and members of the Committee, 
my name is Mike Nannini. I am the Vice Chairman of the Elko 
County Board of Commissioners. I have been an Elko county 
commissioner for 11 years and have served on various local 
government boards and commissions since the 1970s, including 
the mayor of Wells, Nevada.
    Please accept my thanks for the opportunity to discuss the 
impacts of the Southern Nevada Public Land Management Act upon 
Elko County. Five applications from Elko County were approved 
during the round four process. We are aware of at least six 
potential Act applications for Elko County in the near future.
    Elko County is located in the northeastern corner of 
Nevada. Composed of more than 17,000 square miles or almost 11 
million acres, Elko County is the fourth largest county in the 
continental United States. Our county's land mass is larger 
than some eastern states. Seventy-two percent of Elko County is 
federally managed lands. Sixty-two percent is managed by the 
BLM and about 10 percent is managed by the Forest Service. We 
enjoy an abundance of open spaces and outdoor recreational 
opportunities such as hunting, fishing, hiking and camping 
activities which enhance our quality of life. As in many areas 
in the western United States, large components of Elko County's 
economy are directly tied to the use of public lands by 
ranching and mining operations. Generations of our citizens 
have been ranchers and miners.
    In Elko County, the Southern Nevada Public Land Management 
Act causes two strongly held beliefs to be in contention. One, 
that private property owners have a right to sell their 
property as they see fit, and second, that Elko County has 
enough federally managed lands. The conflict between these two 
options is evident among our citizens and members of our county 
commission. Elko County supports private property rights. We 
are reluctant to interfere with the sale of private property 
between willing parties.
    While the Act provides an avenue for public land sales in 
Clark County, its impact is the Federal acquisition of private 
lands in Elko County. With millions of dollars that will be 
generated by public land sales in Clark County, we fear that 
many of our private ranches may be converted to federally 
managed lands within the next decade unless other beneficial 
uses of this windfall of monies are available.
    Section Five of the Act defines lands for acquisitions as 
environmentally sensitive land that will promote a variety of 
purposes such as preservation, recreation, public access, land 
management or for the public interest. We believe this 
definition is vague enough that it will allow most of Elko 
County's private lands to qualify for the acquisition under the 
Act. Private property owners are lured by an artificial real 
estate market created by the acquisition provisions of the Act 
that makes it difficult to ignore the potential of high 
property appraisals.
    Elko County fears that the Act will cause the erosion of 
our tax base due to the reduction of taxable property. The 
Federal Payment in Lieu of Taxes program attempts to balance 
this issue. However, our most recent PILT payment was 22 cents 
an acre for federally managed lands. PILT funding does not 
adequately provide funding for local government services such 
as road maintenance, fire protection and law enforcement. If 
the percentage of private property declines in our county, it 
will force an increased tax rate on our citizens for local 
government services.
    Elko County offers these suggestions that may mitigate the 
Act's impact on rural Nevada. These suggestions have been 
developed from discussions by the county commissioners, the 
Elko County Public Land Use Advisory Commission and from local 
public hearings.
    Amend the law so that lands acquired under the Act outside 
of Clark County will be offset by disposal of land value of 
federally managed lands within the same county. Such disposals 
should be on an equal value basis and offered for private and 
public ownership acquisition. Consideration for sales could 
include grazing allotments to ranchers, unpatented mining 
claims, potential mining and natural resource areas, recreation 
for public purpose leases, RP&P, property and other lands to 
consolidate checkerboard parcels or in-holdings, with priority 
given to local government entities on lands bordering or within 
their boundaries. The final resulting goal of no net loss of 
private lands within the affected county should be a Federal 
management commitment.
    To address the problem of reduced taxable property in a 
county through the Act land acquisition, a tax annuity should 
be established by the seller or a percentage of the sale 
proceeds should be allocated to offset the reduction of local 
government tax revenues. This portion of the sales proceeds 
could be utilized for lost tax revenues, enhanced economic 
development activity and other local government services.
    Allow a portion of the proceeds on the Act land sales in 
Clark County to be appropriated toward the general funds of the 
Federal land management agencies within the State of Nevada to 
maintain lands and facilities currently under their management. 
This could include range management improvements, wildfire 
management, conservation, water developments for grazing, 
recreation or wetland habitat, recreation developments such as 
trails, parks, camping facilities, interpretive signs, wildlife 
and critical habitat enhancements and improvements to existing 
infrastructure and facilities.
    John has already talked about how we feel about water. So I 
will pass that up.
    Increased emphasis should be given to improved access to 
public lands through the acquisition of land easements and 
consideration could be given to increase the current 5 percent 
paid directly to the State of Nevada for use in the general 
education programs in the State.
    Again, I wish to express my appreciation for the 
opportunity to discuss the issues related to the impacts of the 
Southern Nevada Public Land Management Act upon Elko County. 
Perhaps serious consideration of these suggested amendments 
will make the Act equitable for all who are affected by its 
provisions.
    Thank you.
    Mr. Gibbons. Thank you very much, Commissioner.
    We will turn now to Mr. Freeman Johnson who is the 
Assistant Director, Department of Conservation and Natural 
Resources for the State of Nevada. Mr. Johnson, welcome. The 
floor is yours.
    [The prepared statement of Mr. Nannini follows:]

Testimony of The Honorable Mike Nannini, Vice-Chair, Elko County Board 
                  of Commissioners Elko County, Nevada

    Mr. Chairman and Members of the Committee:
    My name is Mike Nannini. I am the Vice-Chair of the Elko County 
Board of Commissioners. I have been an Elko County Commissioner for 
eleven years and have served on various local government Boards and 
Commissions since the 1970's, including the Mayor of Wells, Nevada.
    Please accept my thanks for the opportunity to discuss the impacts 
of the Southern Nevada Public Lands Management Act (SNPLMA) upon Elko 
County. Five applications from Elko County were approved during the 
Round 4 process. We are aware of at least six potential SNPLMA 
applications from Elko County in the near future.
    Elko County is located in the northeastern corner of Nevada. 
Composed of more than seventeen thousand square miles or almost eleven 
million acres, Elko County is the fourth largest County in the 
Continental United States. Our County's land mass is larger than some 
eastern States. Seventy-two percent of Elko County is federally managed 
lands. Sixty-two percent is managed by the Bureau of Land Management 
and about 10 percent is managed by the Forest Service. We enjoy an 
abundance of open spaces and outdoor recreational opportunities, such 
as hunting, fishing, hiking and camping activities, which enhances our 
quality of life. As in many areas in the Western United States, large 
components of Elko County's economy are directly tied to the use of 
public lands by ranching and mining operations. Generations of our 
citizens have been ranchers and miners.
    In Elko County, the Southern Nevada Public Lands Management Act 
causes two strongly held beliefs to be in contention. One, that private 
property owners have a right to sell their property as they see fit, 
and the second, that Elko County has enough federally managed lands. 
The conflict between these two opinions is evident among our citizens 
and members of the County Commission. Elko County supports private 
property rights. We are reluctant to interfere with the sale of private 
property between willing parties. While SNPLMA provides an avenue for 
public land sales in Clark County, its impact is the federal 
acquisition of private land in Elko County. With the millions of 
dollars that will be generated by public land sales in Clark County, we 
fear that many of our private ranches may be converted to federally 
managed lands within the next decade unless other beneficial uses of 
this windfall of monies are available.
    Section Five (Acquisitions) of the Act defines lands for 
acquisition as ``environmentally sensitive land'' that will promote a 
variety of purposes, such as preservation, recreation, public access, 
land management, or for the public interest. We believe this definition 
is vague enough that it will allow most of Elko County's private lands 
to qualify for acquisition under the Act. Private property owners are 
lured by an artificial real estate market created by the acquisition 
provisions of SNPLMA that makes it difficult to ignore the potential of 
high property appraisals.
    Elko County fears SNPLMA will cause the erosion of our tax base due 
to the reduction of taxable property. The Federal Payment in Lieu of 
Taxes (PILT) program attempts to balance this issue. However, our most 
recent PILT payment was twenty-two cents an acre for federally managed 
lands. PILT funding does not adequately provide funding for local 
government services, such as road maintenance, fire protection and law 
enforcement. If the percentage of private property declines in our 
County, it will force an increased tax rate on our citizens for local 
government services.
    Elko County offers these suggestions that may mitigate the SNPLMA 
impacts upon rural Nevada. These suggestions have been developed from 
discussions by the County Commission, the Elko County Public Land Use 
Advisory Commission and from local Public Hearings.
    <bullet>  Amend the law so that lands acquired under SNPLMA outside 
of Clark County will be offset by disposal of a like value of federally 
managed lands within the same County. Such disposal should be on an 
equal value basis and offered for private and public (State or local 
government) ownership acquisition. Consideration for sale could include 
grazing allotments to ranchers, un-patented mining claims, potential 
mining or natural resource areas, Recreation for Public Purposes Lease 
(RP&P) property and other lands to consolidate checkerboard parcels or 
in-holdings, with priority given to local governmental entities on 
lands bordering or within their boundaries. The final resulting goal of 
``No Net Loss'' of private lands within the affected county should be a 
federal management commitment.
    <bullet>  To address the problem of reduced taxable property in a 
County through SNPLMA land acquisitions, a tax annuity should be 
established by the Seller or a percentage of the sale proceeds should 
be allocated to offset the reduction of local governmental tax 
revenues. This portion of sale proceeds could be utilized for lost tax 
revenues, enhanced economic development activity and other local 
government services.
    <bullet>  Allow a portion of the proceeds on SNPLMA land sales in 
Clark County to be appropriated toward the general funds of federal 
land management agencies within the State of Nevada to maintain lands 
and facilities currently under their management. This could include 
range management improvements; wildfire management; conservation; water 
developments for grazing, recreation or wetland habitat; recreation 
developments, such as trails, parks, camping facilities, interpretive 
signs; wildlife and critical habitat enhancements; and improvements to 
existing infrastructure and facilities.
    <bullet>  The Nevada Senate and Assembly approved Senate Joint 
Resolution No. 2 this past Legislative Session which requests SNPLMA 
funding ``for restoration of and water developments on the public lands 
in the areas of Nevada....'' Any acquired water rights should not be 
transferrable inter-basin or inter-county but be utilized for wildlife, 
grazing, recreational or habitat enhancement with any unused water 
rights reverted to the Nevada Division of Water Resources for 
reallocation within the basin.
    <bullet>  Increased emphasis should be given to improved access to 
public lands through the acquisition of land easements.
    <bullet>  Consideration could be given to increase the current 5 
percent paid directly to the State of Nevada for use in general 
education programs in the State.
    Again I wish to express my appreciation for the opportunity to 
discuss the issues related to the impacts of the Southern Nevada Public 
Lands Management Act upon Elko County. Perhaps serious consideration of 
these suggested amendments will make the Act equitable for all who are 
affected by its provisions.
                                 ______
                                 

STATEMENT OF FREEMAN K. JOHNSON, ASSISTANT DIRECTOR, DEPARTMENT 
     OF CONSERVATION AND NATURAL RESOURCES, STATE OF NEVADA

    Mr. Johnson. Thank you Congressman Gibbons and members of 
the Committee. As you stated, my name is Freeman Johnson for 
the record. I am the Assistant Director for the Department of 
Conservation and Natural Resources here in Nevada. It is my 
pleasure to appear before you today to present--
    [Microphone difficulty.]
    Mr. Gibbons. You have just got to love technology.
    Mr. Johnson. I will pick up where I left off. I am Freeman 
Johnson and I am the Assistant Director for the Department of 
Conservation and Natural Resources. It is my pleasure to appear 
before you today to read into the record the testimony of Kenny 
C. Guinn, Governor of the State of Nevada with respect to the 
issue before us today.
    The passage of the Southern Nevada Public Land Management 
Act in 1998 was a landmark for the State of Nevada. As you 
know, Nevada has more Federal land than any other state. Today 
about 87 percent of Nevada's land is controlled by the Federal 
Government. Nevada constantly struggles to cope with the 
impacts of this overwhelming Federal presence. The State is 
grateful to Congress for recognizing our unique status, and for 
approving the concept that excess Federal land can be sold and 
the proceeds used to benefit the environment of the State.
    This concept was first expressed in the Santini-Burton Act 
of 1980 under which land was sold in the Las Vegas Valley with 
the proceedings benefiting Lake Tahoe. The Southern Nevada Act 
built on this success with an innovative and comprehensive 
program that benefits both the Federal agencies and the State.
    The sale of Federal lands in the Las Vegas Valley 
accommodates the needs of our rapidly expanding southern Nevada 
communities. Lands are sold in cooperation with our local 
governments, which help to determine sales schedules through a 
joint selection process. This program has been an outstanding 
success.
    When lands are sold, funds are generated for many purposes. 
The Southern Nevada Water Authority receives 10 percent of sale 
proceeds to help them supply new residents of the Las Vegas 
Valley. The State receives 5 percent for our public schools. I 
note that Nevada, like other western states, has benefited for 
many years from the receipt of 5 percent of the proceeds from 
the sale of all Federal lands in the State. Our State 
Constitution provides that the funds from these land sales are 
deposited in the State Permanent School Fund. The State has 
pledged that these funds will remain untouched in perpetuity, 
while the interest is made available each year to schools 
statewide. The success of the land sale program in the Las 
Vegas Valley has, to date, generated more than $23 million in 
welcome revenue for our Permanent School Fund.
    The Act also makes funds available for many critically 
important natural resource programs. The State and local 
governments have been included in a partnership process to 
decide how these funds are spent each year. We are proud of our 
record of consensus on these funding decisions. Funds are made 
available to local governments in Clark County for local parks, 
trails and natural areas. Funds are also being expended by 
Federal agencies for programs here in Clark County, including 
capital improvements, conservation initiatives, and to protect 
the desert tortoise and other sensitive plant and animal 
species.
    Funds are available for the acquisition of sensitive lands 
anywhere in the State. These funds have been especially welcome 
here in Clark County, and also in northwestern Nevada, where a 
rapidly growing urban populations make it critically important 
to protect sensitive lands from development. Funds have also 
been useful in rural Nevada, where the Federal agencies have 
been working with the State and with county governments to 
identify some sensitive parcels that may be suitable for 
acquisition.
    The State will continue to support the use of these funds 
to address Nevada's natural resource needs. Just a few weeks 
ago, with strong state support, Congress acted to appropriate 
Southern Nevada funds to implement the Lake Tahoe Restoration 
Act.
    The State of Nevada is pleased to be included in 
discussions of other potential benefits of the Southern Nevada 
Public Land Management Act. There are many resource needs 
throughout the State. Our land is being increasingly threatened 
by wildfire and invasive species. There are growing pressures 
from people seeking open space for relaxation and recreation. 
The public lands continue to provide resources for energy, 
minerals, livestock grazing, hunting and fishing and other 
traditional uses. Small communities throughout rural Nevada are 
dependent on these resources for their continued existence. We 
must continue to act decisively to protect our fragile 
landscapes for future generations.
    The State appreciates the opportunity to testify before you 
today.
    Mr. Gibbons. Thank you very much, Mr. Johnson.
    [The prepared statement of Governor Kenny C. Guinn 
follows:]

  Statement of The Honorable Kenny C. Guinn, Governor, State of Nevada

    As you know, Nevada has more federal land than any other state. 
Today, about 87 percent of Nevada's land is controlled by the federal 
government. Nevada constantly struggles to cope with the impacts of 
this overwhelming federal presence.
    The State is grateful to Congress for recognizing our unique 
status, and for approving the concept that excess federal land can be 
sold, and the proceeds used to benefit the environment of the State.
    This concept was first expressed in the Santini-Burton Act of 1980, 
under which land was sold in the Las Vegas Valley, with the proceeds 
benefiting Lake Tahoe. The Southern Nevada Act built on this success, 
with an innovative and comprehensive program that benefits both the 
federal agencies and the State.
    The sale of federal lands in the Las Vegas Valley accommodates the 
needs of our rapidly expanding southern Nevada communities. Lands are 
sold in cooperation with our local governments, which help to determine 
sale schedules through a joint selection process. This program has been 
an outstanding success.
    When lands are sold, funds are generated for many purposes. The 
Southern Nevada Water Authority receives 10 percent of sale proceeds to 
help them supply new residents in the Las Vegas Valley. The State 
receives 5 percent for our public schools. I note that Nevada, like 
other western states, has benefited for many years from the receipt of 
5 percent of the proceeds from the sale of all federal lands in the 
State. Our State Constitution provides that funds from these land sales 
are deposited in the State Permanent School Fund. The State has pledged 
that these funds will remain untouched in perpetuity, while the 
interest is made available each year to schools statewide. The success 
of the land sale program in the Las Vegas Valley has, to date, 
generated more than $23 million in welcome revenue for our Permanent 
School Fund.
    The Act also makes funds available for many critically important 
natural resource programs. The State and local governments have been 
included in a partnership process to decide how these funds are spent 
each year. We are proud of our record of consensus on these funding 
decisions:
    <bullet>  Funds are being made available to local governments in 
Clark County for local parks, trails and natural areas;
    <bullet>  Funds are also being expended by federal agencies for 
programs here in Clark County, including capital improvements, 
conservation initiatives, and to protect the desert tortoise and other 
sensitive plant and animal species; and
    <bullet>  Funds are available for the acquisition of sensitive 
lands anywhere in the State. These funds have been especially welcome 
here in Clark County, and also in northwestern Nevada, where rapidly 
growing urban populations make it critically important to protect 
sensitive lands from development. Funds have also been useful in rural 
Nevada, where the federal agencies have been working with the State and 
with county governments to identify some sensitive parcels that may be 
suitable for acquisition.
    The State will continue to support the use of these funds to 
address Nevada's natural resource needs. Just a few weeks ago, with 
strong State support, Congress acted to appropriate Southern Nevada 
funds to implement the Lake Tahoe Restoration Act.
    The State of Nevada is pleased to be included in discussions of 
other potential benefits of the Southern Nevada Public Land Management 
Act. There are many resource needs throughout the State. Our land is 
being increasingly threatened by wildfire and invasive species. There 
are growing pressures from people seeking open space for relaxation and 
recreation. The public lands continue to provide resources for energy, 
minerals, livestock grazing, hunting and fishing, and other traditional 
uses. Small communities throughout rural Nevada are dependent on these 
resources for their continued existence. We must continue to act 
decisively to protect our fragile landscapes for future generations.
    The State appreciates the opportunity to testify before you today.
                                 ______
                                 
    Mr. Gibbons. We will turn now to Dr. Walt Rulffes, the 
Deputy Superintendent and CFO of the Clark County School 
District. Doctor, welcome, the floor is yours.

STATEMENT OF DR. WALT RULFFES, DEPUTY SUPERINTENDENT/CFO, CLARK 
                     COUNTY SCHOOL DISTRICT

    Mr. Rulffes. Thanks very much for the opportunity to be 
here. I also want to thank the staff members from the various 
agencies that helped guide us through this process, which we 
are not very often involved in. So they have all been very 
gracious and helpful.
    I am from Clark County School District and I am always 
proud to say that I represent 268,000 boys and girls. That kind 
of puts it in context for the reason I like my job so well.
    Our testimony today, Congressman Gibbons, is really very 
fundamental and based on the simple premise that the agencies 
that are directly impacted by the sale of the public land 
should be given maybe some special priority in the distribution 
of funds. You have already indicated in your opening remarks 
that the increased population has an impact on various 
agencies. You have also indicated the importance of education. 
I could not have said it as well, so we will let the record 
stand with that.
    You probably know that we have a school construction bill 
and the taxpayers in Clark County have chosen to impose a tax 
upon themselves to build new schools, but that money is limited 
exclusively only to the use of new school construction, not to 
any of the support infrastructure that is necessary and 
required to support schools. Where we need help are in areas 
like in school security and student safety, school buses, 
maintenance facilities and the support infrastructure to the 
schools, because as indicated, the school construction program 
in Clark County is adequately funded at least until the year 
2008.
    So in conclusion, first of all, we do not want to disturb 
the 5 percent process that is done on a statewide basis. We 
believe that should be left intact. But we would urge you and 
any policymakers to give consideration to sharing some of the 
State proceeds with the local agencies such as the school 
district that have costs that occur as a consequence of the 
sale of the land, because the sale of the land is linked to 
more population, which is linked to costs that we have to incur 
in this county. Even if it is to the extent that it is a 
dedicated fund only for exclusive use for those purposes that 
do occur because of the growth that resulted from the sale of 
the land.
    With that, again thanks for the opportunity to be here.
    Mr. Gibbons. Doctor, thank you very much for your 
testimony.
    We will turn now to Dr. Roberts for your testimony. Dr. 
Roberts is the Nye County School District Superintendent from 
Pahrump. Dr. Roberts, welcome.
    [The prepared statement of Dr. Rulffes follows:]

      Statement of Dr. Walter Rulffes, Deputy Superintendent/CFO, 
                  Clark County School District, Nevada

    Thank you for the opportunity to provide testimony related to the 
distribution of proceeds from the sale of public land in Nevada by the 
Bureau of Land Management. The Clark County School District urges that 
consideration be given to increasing the proceeds from the sale of land 
to benefit educational opportunities for students in southern Nevada.
Background
    The Clark County School District is the sixth largest school 
district in the nation and is home to approximately 70 percent of the 
K-12 students in Nevada. The District serves approximately 270,000 
students in 289 schools throughout the District, which covers 7,910 
square miles. The Clark County School District may be the fastest-
growing school district in the entire nation, increasing by four to six 
percent per year. This fall the District welcomed 12,566 new students. 
To accommodate that growth, 12 new schools were opened. This fast-paced 
growth has been with us for over a decade. Since 1990, 144 new schools 
have been built, and the student population has nearly tripled. The 
community is supporting about $1.25 million per day on school 
construction, but operation funding per student is among the lowest in 
the nation.
    The fastest-growing segment of the District's population is English 
Language Learner (ELL) students. The Clark County School District is 
now a minority-majority district, with approximately 46 percent of the 
population Caucasian, 32 percent Hispanic, and 14 percent African 
American. The District, along with the rest of the country, embraces 
the requirements of No Child Left Behind and faces many challenges as 
we prepare our 46,000 ELL students to meet the rigorous testing 
standards that will help ensure their success in life.
    The District's fast-paced construction is financed by a voter-
approved, ten-year capital program, the fifth voter-approved building 
program since 1986. However, expenditures are limited to school 
construction and equipment. Funding for essential student, staff and 
patron support functions, such as safety and security, food service, 
maintenance, technology, central services, etc., must be taken from 
operational revenues, thus diverting instructional dollars from 
classroom activities.
    The current per-pupil funding for Clark County School District is 
approximately $5,600. This compares to a national per-pupil funding 
average in excess of $7,000. The total funding gap on a district-wide 
basis is approximately $400 million per year. This gap in funding 
results in fewer educational opportunities for students in Clark 
County.Against this background, Clark County School District is 
desperately seeking needed funding sources for non-recurring 
expenditures to address essential educational and school support 
services and non-school capital projects. Examples are not limited to, 
but include:
    1.  New textbook adoptions and related instructional equipment;
    2.  Capital improvements in technology areas, such as computers in 
remediation centers, expanded library systems, and updated enterprise 
systems;
    3.  Accountability reporting to the community, parents and 
government agencies;
    4.  Reduce student dropouts with after-school and Saturday 
opportunities for students to catch up and graduate;
    5.  Campus security improvements for student and staff safety;
    6.  Staff training academies;
    7.  Funding for facilities that will house all-day kindergarten 
programs. (Currently, the District's half-day kindergartners attend 
school for two hours, 40 minutes per day.); and
    8.  Updated safe and efficient housing for central educational 
service personnel.
    Under the current formula for distribution of land sale proceeds, a 
portion is allocated to a legislatively established state fund from 
which annual interest earnings (approximately $4.0 million annually) 
are allocated to the State's Distributive School Account (DSA). While 
this allocation is helpful to the Clark County School District, the 
District could greatly benefit from an increase in the formula, which 
would direct earnings from local land sales directly to southern 
Nevada's students.
    The District supports continuation of the existing allocation, but 
requests that any increased allocation go to the direct benefit of the 
local school district(s).
    We are deeply appreciative of your support in this matter, as well 
as your ongoing interest in improving educational opportunities for the 
students of southern Nevada. We are mindful of the community's concern 
that students from Nevada have full educational opportunities to not 
only meet academic standards to graduate, but also to be competitive in 
future job opportunities, objectives we know you share. We are readily 
available to respond to questions or to provide further information.
    Thank you for this opportunity to provide input on an important 
topic.
                                 ______
                                 

 STATEMENT OF DR. WILLIAM ROBERTS, SUPERINTENDENT, NYE COUNTY 
                SCHOOL DISTRICT, PAHRUMP, NEVADA

    Mr. Roberts. Congressman Gibbons, members of the 
Subcommittee on National Parks, Recreation & Public Lands, 
thank you for allowing me, Rob Roberts, Superintendent of Nye 
County School District, Nye County, Nevada, the opportunity to 
provide testimony concerning the dispensation of funds from the 
Southern Nevada Public Land Management Act. The Nye County 
School District requests increasing the percentage of profits 
being distributed to the Nevada Department of Education from 
the sale of land to benefit the educational opportunities of 
the students in Nye County, Nevada.
    The Nye County School District is the largest geographical 
school district in the continental United States. It 
encompasses 18,400 square miles with 17 schools serving over 
5,400 students. We employ over 700 certified and classified 
staff and operate some 74 buses which drive over one million 
miles a year. Over 98 percent of our tax base is owned by the 
Federal Government, thus denying us the opportunity of an 
adequate tax base to support the education of our children. Nye 
County is the home of the Nellis Air Force Bombing Range, some 
3,000 square miles, yet we see no compensation. We are the Low 
Level Nuclear Storage Site for the United States. Nye County 
has been subjected to over 1,000 nuclear tests, rendering that 
land unfit for human existence. And with the Yucca Mountain 
project on the verge of licensing for high level storage of 
nuclear waste for the entire nation, the students of Nye County 
still see little to no Federal compensation for their 
education.
    The Nye County School District is a diverse community with 
one commonality, being economically disadvantaged. Some 56 
percent of Nye County schools are Title I and 49.5 percent of 
our students qualify for free or reduced lunch. Nye County 
classroom computers are averaging five years of use and older. 
Many of our classrooms are in modulars. Several schools offer 
no air conditioning and are not ADA accessible. Funding for 
essential services are woefully inadequate. Nye County School 
District per-pupil funding is approximately $5560. With a 
national average of approximately $7000 you can see nearly an 
$8 million funding gap. With these funds we could offer the 
education our students deserve and the Federal No Child Left 
Behind legislation demands. It is worth noting that in the 
Washington, D.C. area the per-pupil funding is approximately 
$11,000.
    Nye County School District desperately needs monies for 
their essential educational support and school capital 
projects.
    New buses. Currently our average route bus is approximately 
25 years old. We would like to update our text books. We would 
like to update the technology in the classrooms so that 
computers, Internet and video connections are available in 
every school. We have schools with one-room teachers--one 
building in Duckwater to a middle school with 1,000 students in 
Pahrump Valley.
    After school programs including Saturdays and Sundays--I am 
sorry, Saturdays and in summer schools. School safety 
improvements, air conditioning and ADA assistance for several 
of our schools. Staff professional development training and the 
ability to staff teachers in remote locations. Special 
education teachers, occupational therapists, speech 
pathologists, school psychologists and medical staff. Currently 
we have one school nurse in Nye County. We have been trying for 
over a year to hire one for the north. No takers.
    Presently approximately 5 percent of the profits from land 
sales makes its way to education in Nevada. While that is 
helpful, increasing the local land sales profit distributed to 
school districts in rural Nevada would greatly improve our 
ability to assist students impacted by local land sales and 
Federal ownership and impact of their land.
    The Nye County School District supports continuation of an 
allocation process and the increase of the percentage going 
directly to the students of Nye County and southern Nevada 
school districts. I would have to say all Nevada school 
districts.
    Thank you for the opportunity to provide information 
concerning Nye County and the rural school districts.
    Mr. Gibbons. Thank you, Dr. Roberts.
    [The prepared statement of Dr. Roberts follows:]

         Statement of Dr. William E. Roberts, Superintendent, 
                  Nye County School District in Nevada

    Members of the Subcommittee on National Parks, Recreation and 
Public Lands:
    Thank you for allowing me, Rob Roberts, Superintendent of Nye 
County School District, Nye County Nevada, the opportunity to provide 
testimony concerning the dispensation of funds from the Southern Nevada 
Public Lands Management Act. The Nye County School District requests 
increasing the percentage of profits being distributed to the Nevada 
Department of Education from the sale of land to benefit the 
educational opportunities of students in Nye County.
Background
    The Nye County School District is the largest geographical school 
district in the lower 48 states. It encompasses 18,400 square miles 
with 17 schools serving over 5, 400 students. We employ over 700 
certified and classified staff, and operate 74 busses which drive over 
1,000,000 miles a year. Over 98 percent of our tax base is owned by the 
Federal Government thus denying us the opportunity of an adequate tax 
base to support the education of our children. Nye County is home to 
the Nellis Air Force Bombing Range, some 3,000 square miles, yet we see 
no compensation. We are the Low Level nuclear Storage Site for the 
United States. Nye County has been subjected to over 1,000 Nuclear 
Tests, rendering that land unfit for human existence. And with the 
Yucca Mountain Project on the verge of licensing for high-level storage 
of nuclear waste for the entire nation, the students of Nye County 
still see little to no Federal compensation for their education.
    The Nye County School District is a diverse community with one 
commonality, being economically disadvantaged. Some 56 percent of Nye 
County Schools are Title I, 49.5 percent of our students qualify for 
Free or Reduced Lunch. Nye County classroom computers are averaging 
five years of use. Many of our classrooms are in modulars, several 
schools offer no air conditioning and are not ADA accessible. Funding 
for essential services are woefully inadequate. NCSD per-pupil funding 
is approximately 5,560 dollars, with a national average of 
approximately 7,000 you can see a $7,776,000 per year funding gap. With 
these funds we could offer the education our students deserve and 
federal No Child Left Behind legislation demands.
    Nye County School District desperately needs monies for essential 
educational support and school Capital Projects:
    1.  New School Busses--Currently average route bus is twenty-five 
years old;
    2.  Updated Textbooks;
    3.  Technology in every classroom and Internet, Video connection to 
every school;
    4.  After-school programs including Saturdays and Summer School;
    5.  School Safety improvements;
    6.  Air-conditioning and ADA assistance for several schools;
    7.  Staff Professional Development Training; and
    8.  The ability to staff teachers in remote location, i.e. Special 
Education, OT, PT, School Psychologists and medical staff.
    Presently approximately 5 percent of profits from land sales makes 
its way to education in Nevada, while that is helpful, increasing the 
local land sales profit distributed to school districts in rural Nevada 
would greatly improve our ability to assist the students impacted by 
local land sales and federal ownership and impact of their land.
    The Nye County School District supports continuation of the 
allocation process and an increase of the percentage going directly to 
the students of Nye County and other southern Nevada school districts.
    Thank you for the opportunity to provide information concerning 
education in Nye County and Southern Nevada.
                                 ______
                                 
    Mr. Gibbons. Let me say to each of our witnesses here 
today, you have raised some very significant issues here. I 
think it is clear to myself, it is clear to, I am sure, many 
people in the audience that there is an enormous disparity 
between urban parts of our state and urban school districts and 
rural parts of our state and rural school districts, and this 
disparity gets even greater based on the fact that we lose 
taxpayer bases in rural parts of our county. We gain taxpayer 
base, private property, in Clark County. I mean what I heard 
Dr. Rulffes say was that, you know, we needed just help with 
some of the operating costs. We have a taxpayer base that pays 
for a lot of our educational needs and our schools here in 
Clark County. That is not the testimony that I just heard from 
Dr. Roberts. It is just quite the opposite.
    So the point of this hearing today is to figure out how we 
adjust the equality to make sure that the education of some 
child in Pahrump or in Duckwater, Nevada, has the same quality 
as a child being educated here in Las Vegas. I think clearly 
that the Clark County school superintendent would agree with 
the Nye County school superintendent that those children are 
just as important, just as valuable and deserve just the same 
opportunities as our urban schools do.
    [The prepared statement of Mr. Ellison follows:]

   Statement submitted for the record by The Honorable John Ellison, 
        Chairman, Elko County Commissioners, Elko County, Nevada

    My biggest concern of the Southern Nevada Public Lands Management 
Act is the economic impact felt by the loss of productive lands and 
those whose lives are supported by them.
    I agree with my fellow Elko County Commissioners on the ad valorem 
tax, but there is a broader concern of a trickle-down effect with the 
loss of important members of our county ``community'' and a vital part 
of our economy. I believe we lose so much more when we lose fuel and 
retail sales taxes from those residents who are lost when Elko County 
ranching lands are gone.
    Keeping in mind an important purpose of SNPLMA is in protecting 
environmentally sensitive lands, one must also take into account the 
positive effects ranching has on our public lands including that of 
fire suppression.
    In addition, I do believe in Congressman Gibbons support of using 
these funds for our school system.
    I will be in attendance to support Assemblyman John Carpenter and 
Elko County Commissioner Mike Nannini during their testimonies and will 
be available to answer questions, but do not intend on testifying 
myself.
    Thank you.
                                 ______
                                 
    Mr. Gibbons. Let me start off over here and ask 
Commissioner Ellison who has submitted his testimony for the 
record. John, what is the average PILT payment to Elko County 
for public lands in Elko County per acre? If you have got an 
estimated acre amount.
    Mr. Ellison. Well, I think it averaged out about two cents 
an acre and this year it was increased to $1.2 million, I 
think, was it not, Mike?
    Mr. Nannini. Mr. Chairman, it averaged out to about 22 
cents an acre.
    Mr. Ellison. Well, that does not include the Forest 
Service. That is just strictly BLM.
    Mr. Gibbons. So Elko County is receiving about 22 cents an 
acre for all of the Federal lands in terms of taxes or PILT, 
payment in lieu of taxes?
    Mr. Nannini. It is about $1.5 million. They have boosted it 
up to about $1.5 million a year.
    Mr. Ellison. And I think the last--this is the first 
increase we have had in two years, is that correct, Mike?
    Mr. Nannini. [Nodding head affirmatively.]
    Mr. Ellison. It still does not cover the--
    Mr. Gibbons. That is what my next question is. What are the 
deficiencies in county operation because you lack private 
property taxpayer base even though you do get a PILT payment? 
What are the deficiencies?
    Mr. Ellison. We have done reduction in staff throughout the 
county because of the gold prices in our area, which is our 
largest industry right now, with the PILT--even with the PILT 
and the ad valorem coming in, with the shortfall we had this 
year. So we did have reduction in staff and services through 
Elko County.
    Mr. Gibbons. Mr. Carpenter, let me ask you a question, 
because Commissioner Nannini brought it up. The no-net-loss of 
private land concept. That is a concept that I am sure--
according to your poll--many of the people in Elko County and 
in rural areas would support. Would you support a legislative 
proposal that included a no-net-loss of private lands in Elko 
or other rural counties in Nevada?
    Mr. Carpenter. Well thank you, sir. I certainly think that 
that is something that needs to be looked at. We have had a 
little experience with that in Elko County. A few years ago 
there was some speculators that came up there and they wanted 
to buy a large chunk of land in Elko County. So I went to the 
county commissioners, and Senator Norm Glazier, you know, also. 
We went to the county commissioners and said, you know, if 
these people buy this ranch it is going to take a large chunk 
out of our economy. So the county commissioners told the 
developer, the speculator, that--and he was going to trade that 
land down here in Clark County. So the county commissioners 
told him that before you can get title to the land in Elko 
County, you are going to have to buy another ranch in Clark 
County and do what we called a reverse exchange. So we have had 
some experience with that. It did work in that case. I guess 
what we would really like to see is that we have a Southern 
Nevada Lands Act for northern Nevada so they could just sell 
some of the land off up there. But certainly the no-net-loss is 
a better deal than what is happening now. We just feel that we 
need to get more land into private ownership so that we 
increase that tax base.
    Mr. Gibbons. Let me ask one final question, Mr. Carpenter. 
Over the time period say of the last four years--three years, 
since the Southern Nevada Public Land Management Act has come 
into place, how much land has the Federal Government sold for 
private purposes in Elko County?
    Mr. Carpenter. I would not know the exact amount, but I 
think that it would be very little. I think that probably 
they--and I do not know the figures for sure. But I think that 
it is very little that they have sold. Even though the BLM says 
that they have classified land for disposal, we have a very 
hard time finding out where these lands are and what the 
procedure to buy them is. So the BLM has not been too much up 
front in the lands that they say that are there for disposal. 
It is really hard for people to get a handle on it.
    Mr. Gibbons. We will have Mr. Abbey here and perhaps he can 
help us with that question as well.
    Mr. Goicoechea, maybe you have got an answer to that 
question from your standpoint. I also want to ask you about the 
impact of groundwater and water rights and the acquisition of 
private lands and how that impacts how you see water rights in 
your rural district, which obviously seven counties is a huge 
area out of the central part of the State.
    Mr. Goicoechea. Thank you again, Congressman Gibbons. 
Eureka County--you talk about the no-net-loss, Eureka County 
has a component of their master plan that requires that there 
be no net loss to the county. Unfortunately what you end up 
with, are you talking acre for acre, net loss or are you 
talking comparable values where maybe one acre is worth 100 of 
what you get back in exchange. It is very difficult to work 
through. So I think the net loss provision is very difficult.
    I think, again, as Mr. Carpenter stated, when you talk 
about land disposals in northern Nevada there are several that 
are ongoing, some of them very large. I think the BLM is doing 
a good job of--or is trying to work through it. But again, they 
are so sorely underfunded. When we talk about PILT, again, we 
have to realize that PILT was only paid at 55 percent, I would 
like to remind the Congress. So we need those PILT dollars, 
too, in these local governments.
    I am just going across all the questions that you raised to 
the other people. Clearly, I think it just fortifies the fact 
that we do need more money in the Bureau's hands and to access 
private land sales in northern--public land sales to the 
private sector in northern Nevada. We have to make money 
available to do the cultural--the real estate. If you started a 
transaction today, it will be five years before you get a 40-
acre parcel purchased. It is not the fault of the BLM, it is 
just the fact that there is no money and staff available to get 
it done.
    On the water rights side, of course, it is another issue. 
In my district it is--at least portions of my district are 
concerned about even the 10 percent of the Southern Nevada 
Public Land Management Act money that goes to Southern Nevada 
Water Authority. Technically that money--in some sectors it is 
felt that that money is being used--or could be used to move to 
northern Nevada and to supply--I think the Act allows for the 
building of transmission lines. Again, some people in northern 
Nevada are very concerned that maybe we will have money coming 
out of the Southern Nevada Public Land Management Act that 
would facilitate water rights being moved from northern Nevada 
to southern Nevada. Any time you sell private property you sell 
the water with it. We are a beneficial use state, if you cannot 
use it, you lose it. If you sell the property the water is 
gone. So again, at the point that you acquire a piece of 
private land and it goes public then the water goes with it. 
That water is the lifeblood of rural Nevada, northern Nevada, 
all of Nevada. And we do recognize that southern Nevada will 
need some additional water.
    Thank you.
    Mr. Gibbons. Thank you.
    Mr. Nannini, let me ask you a question because you 
mentioned when I asked Mr. Ellison the value that you receive 
under PILT averages about 22 cents per acre. Would you rather 
have more privately owned land to be taxed or would you rather 
have PILT payments on more public lands into the county? Which 
would you prefer?
    Mr. Nannini. Larger PILT payments for sure, and that is a 
common-sense deal, I think. But just to add a little bit on 
your question. You know, presently the BLM has 90,000 acres 
that they would like to sell in rural Nevada, you might say, 
northeastern Nevada. There is just no way under their system, 
or under the Federal system, that they can put that land back 
into the economy. There is just no way they can do it. I have 
worked with several of the ranchers and some of the miners. An 
easy way to do it was to allow the ranchers to buy their 
allotments so that this threat of losing their AUMs is 
continually over their head. The yearly operation of their 
ranches is--it is always a threat on how many cows, how many 
AUMs they can run on those allotments. If we would just let 
those ranchers buy their allotments and let these mines buy the 
property, even at an assessed value. If there is gold on those 
lands, put the price up so they can buy it. The way it is now, 
and the way we were raised as politicians or as elected 
officials, is the mining industry has to buy a ranch or a piece 
of sensitive property and then trade, you know, and that is no 
different than what we are doing here in southern Nevada. But 
if these folks could be allowed to continue to exist and 
continue to build on their family ranches and to continue 
mining in rural Nevada that would help all of us.
    Mr. Gibbons. So what you are saying is, right now there is 
a quasi extortionary process between a mine trying to get a 
permit and a requirement that they go out and purchase a ranch 
in order to get the permit to operate the mine?
    Mr. Nannini. That is correct. If they find gold on a piece 
of BLM property--I will pick on the BLM right now--or Forest 
Service property, they have to go out and buy a piece of 
environmentally sensitive ground and then trade it back for 
that property. You know, that has been ongoing. We have lived 
with that. We have dealt with that. But now with this money 
from the Southern Nevada deal it is going to wipe us out. And 
why not let these ranching families and these mining families 
go out and pay market--they are willing to pay market value. 
They paid that market value for their ranches. They paid two or 
three million dollars for a ranch. You know, they have paid 
several million dollars for trading land to get the gold. Why 
can we not do that on a direct deal and allow these folks to 
exist? That is all we are asking as Elko County commissioners.
    Mr. Ellison. Some of these areas are so far off--
    Mr. Gibbons. You have to speak into the microphone.
    Mr. Ellison. I am sorry, Jim.
    Some of the areas that BLM listed for disposal was in very 
remote areas so it is kind of hard.
    Mr. Gibbons. Thank you. Thank you very much.
    Let me turn over to Mr. Johnson for a second. You indicated 
in your testimony that you felt, and the State felt that 10 
percent of the funds used to supply new residents with water is 
an adequate sum. Do you feel that 5 percent is an adequate sum 
for the educational needs for the kids of Nevada?
    Mr. Johnson. Mr. Chairman, I would have to defer responding 
to that. The 10 percent is the Governor's testimony, and I do 
not feel qualified to--
    Mr. Gibbons. I am not asking you for a specific number of 
dollars, just your opinion. I mean you are here testifying on 
behalf of the Governor representing the State and you can give 
your opinion, whether you think 5 percent is adequate. If you 
think 10 percent is adequate for the water needs of Clark 
County, do you think 5 percent is adequate for the needs of the 
kids of Nevada?
    Mr. Johnson. No, I do not.
    Mr. Gibbons. OK. Because you said you did not want to 
disrupt the 5 percent that is already existing. I mean this 
plan that we are talking about under our proposal would 
increase that to 35 percent.
    Mr. Johnson. That is understood.
    Mr. Gibbons. It would not disrupt the 5 percent. It would 
just add a top to that, 30 more percent of the proceeds, which 
does not quite go to where the bill was originally when it was 
designed. Senator Ensign and former Senator Bryan had 50 
percent of the proceeds used to go back to the education of the 
kids of the State; however, that was beaten back by some 
environmental groups and it threatened the passage of the Act 
to the point where the compromise was well, we will give you 5 
percent for the kids. I just think that by selling land down 
here in Clark County and the added burdens that you hear, 
either Dr. Rulffes or Dr. Roberts talk about, that 
infrastructure seems to be as equally as important as the water 
infrastructure is, which is now twice as important as education 
seems to be.
    Mr. Johnson. Congressman, personally I would agree that 5 
percent is a minimum, but any more than that is certainly 
necessary, and it is indicated by what has happened thus far 
with respect to the funding that is being made available to the 
school operations and to the children's educational 
opportunities here within the State.
    Mr. Gibbons. I am not trying to put you on the spot, Mr. 
Johnson. I just want to get a comment into the record where the 
State sits on this issue.
    Let me also ask a question--now this is going to be a 
little more subjective. Do you think, or does the Governor 
believe that the Federal Government is doing a better job of 
managing the lands in this state than the State?
    Mr. Johnson. I can answer that in two manners, Congressman. 
Personally, I do not, and I would have to presume that the 
Governor shares that opinion or that I am in line with his 
opinion that the Federal Government is not doing a better job 
of managing the lands in Nevada than Nevadans could do such as 
you have indicated in your opening remarks.
    Mr. Gibbons. Thank you.
    Let me turn real quick like over here to Dr. Rulffes. I had 
a question that I wanted to ask. I need to get this right 
because the need for security, safety, buses, construction that 
you testified to is critically important, yet we are always 
exploring ways to get resources specifically in the proposal 
that I have submitted. Clark County now seems to be on the 
record opposing additional revenues from this, and I just 
wanted to either clarify that for the record or maybe I 
misunderstood what you were saying. Is Clark County in support 
of getting additional revenues or are they opposed to getting 
additional revenues under this bill?
    Mr. Rulffes. In support. May I go on for just another 
minute or so?
    Mr. Gibbons. Yes.
    Mr. Rulffes. As a former superintendent of a rural and 
small school district, I have stood up many, many times and 
defended the needs of rural school districts. I would never 
want it to be suggested that we would want anything other than 
more money for rural schools. But to segue into the increased 
tax base that you mentioned to me, most of the increased tax 
base under the funding formula of this state goes to an offset 
so that the State portion is reduced to the school districts, 
all school districts. So only a small part of the increase in 
the tax base benefits directly the local school district, and 
that, too, is computed into the per-pupil cost.
    Mr. Gibbons. Well then it is an awful lot of differential 
when you take that tax base away from a rural county that takes 
the same revenue source. It then gets more state revenues if 
state revenues are available, but your county--Clark County is 
growing at such a tremendous rate that it--I do not believe the 
State of Nevada has ever reduced its funding share to Clark 
County in the last five years.
    Mr. Rulffes. It reduces it by the increase in the amount of 
sales tax and property tax.
    Mr. Gibbons. Proportionately. But that amount still grows 
at an enormous rate because of the growth rate in Clark County, 
does it not?
    Mr. Rulffes. It grows but our per-pupil does not grow.
    Mr. Gibbons. Yeah.
    Mr. Rulffes. And so we are kind of in the same boat as the 
other school districts. And again, all of the school districts 
have inadequate funding to deal with the kind of support 
functions that I mentioned in my testimony.
    Mr. Gibbons. Well let me just ask just for the record 
clarification one more time. Does Clark County support the 
proposal of going from 5 percent to 35 percent in the proceeds 
of the sale for education?
    Mr. Rulffes. We support an increase to go to education. I 
do not believe we are qualified enough in the activity to say 
what the percentage should be in the terms of balancing it out, 
but we clearly support more of the dollars going to education--
    Mr. Gibbons. Fair enough.
    Mr. Rulffes. --in whatever format.
    Mr. Gibbons. Dr. Roberts, we actually invited some of the 
Pahrump Valley schoolchildren to attend this hearing today, but 
they could not afford the bus trip over. Your school district 
could not afford the bus trip over here to Las Vegas, and that 
is 60 miles, is it?
    Mr. Roberts. No, it was not budgeted.
    Mr. Gibbons. So your school district--when it comes to 
seeing Federal Government operation on a direct--is impacted 
dramatically by a lack of funding to allow these children to 
get the experience that they might have being able to sit out 
here in the audience, as these adults are, to see what happens 
at a Federal hearing.
    Mr. Roberts. Well last year Nye County took a 2.8 million--
    Mr. Gibbons. Is your microphone on?
    Mr. Roberts. It is.
    Mr. Gibbons. OK. I am sorry.
    Mr. Roberts. Nye County took a $2.8 million budget 
reduction. We actually lost 22 teacher positions and 20 staff 
positions.
    Mr. Gibbons. Did you have an increase in the number of 
children?
    Mr. Roberts. We did not last year. This year we did have an 
increase. We actually buy--we buy Clark County's used buses. 
When they get to the point they no longer want them, they are 
kind enough to sell them to us, and we appreciate it.
    Mr. Gibbons. I am sure you appreciate that, but it makes 
you feel like a stepchild, does it not? You are getting the 
used clothes or the used school buses handed down to you.
    Mr. Roberts. It is very difficult to recruit people to live 
in areas where there is no hospital, where the closest store, 
gasoline station or restaurant is over an hour away. It is a 5-
hour drive from Duckwater to Pahrump, on and on.
    Mr. Gibbons. Let me say that I have had the great pleasure 
of being in Duckwater for the annual commencement, the 
graduation from the Duckwater school there. This was a couple 
of years ago. I was the keynote speaker, and they had one 
student graduating that day. There were 80 parents in the 
audience for that one student, which tells me that there is a 
great deal of involvement of parents in that school area around 
Duckwater, Nevada. I was very pleased to be able to celebrate 
the graduation of that one student from Duckwater School, which 
is a traditional one-room, one-teacher kindergarten through 
eighth grade or ninth grade.
    Mr. Roberts. Also handles lunch, recess, medical 
emergencies and occasionally drives the bus.
    Mr. Gibbons. Well it was an amazing experience to be there 
for that. So I congratulate you and Nye County on the work they 
are doing as well with very limited resources.
    Before I excuse this panel, I want to propose two questions 
to all of you to submit in writing to us. The question is, do 
you have more faith in how Nevada lands are cared for under 
Federal control or under State, county and local control? That 
is one question. The second question is, do you believe 
additional Federal ownership of Nevada lands constitutes a 
better educational environment for our children? Very simple, 
open-ended questions that I would love to have you submit back 
to us in writing.
    I do not know if I have any more questions here. So at this 
point in time, what I would like to do is excuse the first 
panel. I want to thank you for taking time to come here. As I 
said, your full and complete written testimony will be 
submitted for the record. With that, we want to excuse the 
first panel and call up the second panel of witnesses today. 
Thank you, gentlemen, very much.
    Now the second panel is going to be Mr. Larie Trippet, 
President, Dust Devils Motorcycle Club and a Member of the 
Northwest Sierra Front Great Basin Resource Advisory Council 
for the Bureau of Land Management in Reno, and Mr. Donald 
Decker, Management Member, Century Gold, Limited Liability 
Corporation, Spring Creek, Nevada. It is pretty easy, just two 
gentlemen here today on this panel. That means you get more 
focus and more attention. Before you do sit down, I am sorry, I 
have to swear you in as I did the last. So if you will please 
rise and raise your right hand.
    [Witnesses sworn.]
    Mr. Gibbons. Let me introduce each of you again.
    Mr. Larie Trippet, as I said, you are President of the Dust 
Devils Motorcycle Club, you are a member of the Northwest 
Sierra Front Great Basin Resource Advisory Council here in 
Nevada. With that, Mr. Trippet, welcome, the floor is yours. We 
look forward to your testimony.
    And again, if you need an explanation about the lights, it 
is limited to five minutes.

 STATEMENT OF LARIE TRIPPET, PRESIDENT, DUST DEVILS MOTORCYCLE 
 CLUB AND MEMBER, NORTHWEST SIERRA FRONT GREAT BASIN RESOURCE 
   ADVISORY COUNCIL, BUREAU OF LAND MANAGEMENT, RENO, NEVADA

    Mr. Trippet. Thank you very much, Congressman Gibbons. I 
appreciate the opportunity to speak. It is an honor and a 
privilege to be here.
    I have been an active motorcycle rider since about 1970 and 
was politically active in southern California with the issues 
of land use down there and I have been active in northern 
Nevada as well. My role on the Resource Advisory Council is as 
a highway vehicle advocate.
    I am pleased to hear that you are considering some 
alternatives to the dispensation of the funds from the Southern 
Nevada Public Lands Management Act. Because I am here mainly 
talking about recreation, I certainly am not opposed to 
spending more money on education. I do not want that to come 
across at all. In fact, in thinking, certainly recreation, the 
base of the word is to recreate that certainly should be part 
of an education of our children. The use of the land, the 
respect for the land, the stewardship for the land. So I 
believe that recreation is certainly a component of the 
education of our children but certainly not the formal 
structured education that they get in the schools.
    I think a positive and proactive use of the funds would be 
for effective management of recreation, and although my 
background is highway vehicle recreation, I do want to speak to 
all recreation. I think that is fair.
    Demand for recreation in Nevada is increasing. In northern 
Nevada, we see a tremendous increase of off-highway vehicle use 
at the Sand Mountain Recreation Area. A majority of those 
visitors are from California. So what we see is an impact on 
the economy, a positive impact on the economy, of these 
tourists coming into Nevada to recreate. Certainly with the 
urban pressures in Clark County and Las Vegas, I would suspect 
that many of those residents, with their families, would choose 
to leave Clark County and go to rural Nevada to recreate, 
whether it be hunting, fishing, hiking, off-highway vehicles, 
whatever the case may be.
    We also see increasing demand for recreation in Peavine 
Mountain outside of Reno and the Pine Nut Mountains outside of 
Carson City. All these areas are getting impacted by the 
increase in recreation and certainly could use additional 
funding for effective management of recreation.
    The key overriding issue is access to public lands and I 
want to make a point that management of land for recreation is 
not closure and restriction. It is my belief that we need a 
fair amount of land for multiple uses, to design, engineer, 
build and maintain quality trails, to provide signage, mapping, 
education, to provide reasonable law enforcement. In order to 
provide the recreation and to do it effectively takes money.
    As I have mentioned, recreation supports the economy. The 
visitors come into Nevada, they are buying gasoline, they are 
buying supplies, they are taking use of the economy. It 
provides a diversification for the State over and above the 
gaming attraction and as you have probably noticed, the Nevada 
Commission on Tourism is marketing Nevada as the wild place, 
the wild place to recreate. In our Resource Advisory Council we 
have wondered how the BLM and the Forest Service will manage 
this influx of tourism that the Nevada Commission on Tourism is 
inviting. We have had some panel discussions on that. So I am 
here to argue for a little bit of funding to support recreation 
in Nevada.
    I also wanted to talk about the consequences of the 
Southern Nevada Public Lands Management Act, but they have 
already been mentioned, so very briefly, one of the first 
things our Resource Advisory Council mentioned when round one 
of the acquisitions came up was that there was no money for 
improvements. The Federal agency might be able to buy land, but 
if there was a need for a parking lot, need for signage, need 
for a toilet, need for a picnic area, there was no money for 
improvements to make it more publicly accessible or usable. And 
there was no money for ongoing maintenance and management of 
the land. So those are two deficiencies that we noticed. And I 
am not speaking for the RAC, I am speaking for me and the 
conversations that I have had with some of those people on the 
RAC.
    We have also already talked about the percentage of Federal 
land in Nevada. Some of my contacts on the Resource Advisory 
Council have also expressed the no net loss concept and I 
thoroughly support that idea.
    That is the end of my oral testimony. Thank you very much 
for the opportunity, I appreciate it.
    Mr. Gibbons. Thank you very much, Mr. Trippet.
    We will turn now to Mr. Donald Decker. Mr. Decker, welcome, 
the floor is yours. We look forward to your testimony.
    [The prepared statement of Mr. Trippet follows:]

 Statement of Larie Trippet (Larimore O. Trippet II), President, Dust 
 Devils Motorcycle Club, Member, Bureau of Land Management's Northwest 
    Sierra Front Great Basin Resource Advisory Council, Reno, Nevada

    I would like to thank the members of this Committee for allowing me 
the opportunity to submit testimony on this topic.
    As I understand the purpose of this hearing, the Subcommittee is 
considering amendments to the Southern Nevada Public Lands Management 
Act (SNPLMA), which will allow for alternative uses of the money raised 
from the sale of federal land in Clark County, Nevada. Currently, the 
Act provides for the purchase of ``environmentally sensitive'' land 
outside of Clark County, but within Nevada. The land sales in Clark 
County have exceeded expectations with respect to revenue generated, 
while purchases of land have been more difficult to achieve.
    I applaud Congress's willingness to look at this issue.
    I first want to comment on some discussions I have had at RAC 
meetings. I do not speak on behalf of the RAC, nor for the BLM in 
Nevada, but simply relate some feelings and opinions discussed by some 
of the RAC members.
    Three years ago, our RAC was involved in commenting on potential 
sites for purchase with SNPLMA funds. It was the first such ``round'' 
of purchases. Several of us asked about money to make improvements or 
to manage and maintain the land once purchased. An example of 
improvements might be like this: Some land was purchased along the 
Carson River to provide public access and prevent major development. 
Improvements might be considered for better parking, signage, picnic 
facilities, toilet facilities, etc. These all might be appropriate 
improvements to better manage the land that was acquired. SNPLMA does 
not provide for this. It should!
    Similarly, we asked about funding for ongoing management of the 
acquired land. SNPLMA does not provide for this. It should!
    What SNPLMA does is provide for acquisition of land with no money 
to properly ``set it up'' for use or to properly manage it over the 
long run. This is a terrible oversight! This is true regardless of the 
purpose of the acquired land: protected, recreation or other.
    Other comments from some RAC members focus on the percentage of the 
State of Nevada that is under federal control. Nevada has the highest 
percentage of federal ownership than any other state. When I joined the 
RAC three years ago, I agreed with the sentiment that there should be 
NO NET GAIN in federal land ownership in Nevada and that, preferably, 
that percentage would actually decrease.
    However, the consequence of the SNPLMA is that the percentage of 
federal land ownership in Nevada is/will grow. From my understanding of 
the success in selling parcels in Clark County, the BLM is taking in 
huge amounts of money for a small number of acres. If that same money 
were used to buy land outside of Clark County, the number of acres 
would be HUGE. In my opinion, this is a very NEGATIVE consequence of 
SNPLMA.
    Of course, one of the effects of private lands being acquired by 
BLM/USFS is the reduction in tax revenue to the counties and State. 
Nevada is already struggling with the following:
    <bullet>  the low price of gold has caused the mining towns 
economies to suffer;
    <bullet>  environmental regulations have further squeezed the 
mining businesses and communities;
    <bullet>  endangered species issues and environmental regulations 
have hurt the ranchers and livestock production; and
    <bullet>  Congressionally designated lands (in particular the High 
Rock Black Rock Emigrant Trail Conservation Area) has precluded 
potential alternative energy development and reduced grazing 
opportunities.
    To acquire and set aside more land would continue to harm Nevada's 
economy.
    With these two points in mind, I strongly encourage Congress to 
find alternative uses (other than acquiring land) for the proceeds of 
land sales in Clark County.
    What might be some alternative uses?
    My interest and background are centered around recreation. Although 
my specific background and interest is in motorized recreation, I 
believe my comments apply to all forms of recreation. By including all 
forms of recreation, I want to ensure that the resources (land) are 
shared by all. Most areas should be kept as ``multiple use,'' thereby 
allowing ALL forms of recreation (motorized and non-motorized). This 
does not preclude some areas designated for exclusive use for some 
forms of recreation. Hikers and equestrians already get exclusive 
access to Wilderness areas.
    Why recreation? It brings visitors from other states to Nevada to 
recreate. Nevada has some outstanding resources for all sorts of 
recreation and access to wide open spaces and solitude. Allowing SNPLMA 
funds to benefit statewide recreation on federal land would be a great 
economic benefit to Nevada and provide for appropriate management of 
activities to promote resource stewardship and land use ethics.
    I am involved with land use issues at the Sand Mountain Recreation 
Area (SMRA) in Northern Nevada. This is about 4,000 acres set aside for 
OHV (and other) recreation. However, concerns about a blue butterfly, 
and it's host plant, the Kearney Buckwheat, along with fears over the 
heavy hand of the Endangered Species Act, have caused the BLM to 
restrict travel in this area. It is well-known that about 80-85 percent 
of the visitors to SMRA are from out of state, California. These 
visitors provide an economic benefit to the surrounding communities of 
Fallon, Carson City and Reno.
    The number of annual visitors to SMRA has increased every year 
since it was established. This is due to the population growth in 
Nevada along with the constant closures of land to OHV recreation in 
California. The demand for OHV recreation continues to grow. Use of 
SNPLMA funds can help meet that demand and help minimize the impact to 
public lands.
    With additional funding from SNPLMA, trails could be planned, 
engineered and constructed to provide for a better recreational 
experience while providing protection for the butterfly. Existing 
trails that would get used extensively could be maintained through the 
purchase of appropriate equipment and manpower to do the work.
    Once again, let me reiterate that I support all forms of 
recreation. I use OHV examples because I most familiar with that.
    Another area that could benefit from additional funding is Peavine 
Mountain outside Reno, Nevada. The Washoe County Backcountry Coalition 
is a diverse group of interested parties working together to ensure 
access to Peavine Mountain, which is part USFS and part BLM. They have 
been very successful in gaining support from the City of Reno, Washoe 
County, as well as several developers. Were it not for their efforts, 
access points to public land would have been blocked by development.
    Additional funding could be used for:
    <bullet>  effectively designating and signing areas for multiple 
use or specific use;
    <bullet>  maintain roads and trails; and
    <bullet>  plan, design, engineer and build new or alternative 
trails.
    Although I generally oppose the acquisition of more land by federal 
agencies, Peavine Mountain is an example where it does make sense. 
There are inholdings of private land that, if acquired, would provide 
recreational opportunities, open space, and habitat protection.
    The Nevada Commission on Tourism is already marketing Nevada as a 
wild place for all sorts of recreation possibilities. Since so much of 
Nevada is federal land, it is the federal agencies that will have to 
manage this influx of wild recreational tourism. Clearly additional 
funding from SNPLMA activities could help provide for effective 
management of these activities. I personally think this is a pretty 
good marketing campaign for tourism. It should bring needed revenues 
outside of the draw of the gaming industry. However, the federal 
agencies need the resources (money) to properly manage it. CLOSING THE 
LAND, PREVENTING ACCESS, RESTRICTING USAGE IS NOT THE ANSWER! Proper 
planning and management to meet the demand is the best approach...and 
that takes money.
    Once again, thank you for the opportunity to submit testimony as 
you consider amendments to SNPLMA. I hope that some funding can be 
directed toward recreation to meet the increasing demand and to ensure 
the resources are well managed by the federal agencies.
                                 ______
                                 

         STATEMENT OF DONALD DECKER, MANAGING MEMBER, 
            CENTURY GOLD, LLC, SPRING CREEK, NEVADA

    Mr. Decker. Thank you, Congressman Gibbons. I appreciate 
very much the opportunity to be here and to testify on this 
very important public land management legislation.
    I have chosen to live and operate a business in Nevada for 
over 30 years. I have a Master of Science in geology from the 
Mackay School of Mines in Reno and presently operate the second 
largest privately held mineral exploration firm in northern 
Nevada. I also serve on the Elko County Public Land Use 
Advisory Commission, which is designated by the county 
commissioners. I have been involved in public land issues all 
of my life.
    Nevada has been severely impacted by a multitude of 
piecemeal land management legislation decisions over the last 
150 years. Several of these actions in recent years have 
addressed broadening the private land base in southern Nevada, 
which has sustained the economic growth in southern Nevada for 
many years. The Southern Nevada Public Land Management Act 
offers a unique opportunity to address many public land 
management issues at one time, if we avoid the piecemeal 
approach of the past.
    Southern Nevada Land Management Act provides a method to 
convert public land to private land base within the State. This 
is working very well for Clark County and southern Nevada. 
Through this Act, the private land and water base that is 
required for any economic growth engine, is being increased in 
southern Nevada, while being decreased in the remainder of the 
State. This needs to be corrected.
    There is a discussion about the acquisition process of 
using the monies from the Act and I certainly support the 
principle of private property rights. We just have to realize 
though that the acquisitions made by the monies from the 
Southern Nevada Land Act are not a free market transaction. It 
may be argued that they are, but they are not necessarily a 
willing seller/willing buyer. I actually personally have 
offered to buy some of the parcels that have been offered in 
round four and they were not available to me at the same price 
as were offered by the Federal Government.
    I basically have three recommendations for consideration:
    One is to convert existing public lands in all areas of the 
State to private lands. Presently over 87 percent of Nevada is 
public land, which restricts the economic activity. We can say 
that the PILT payments would compensate for that, and they do, 
but to a very limited extent, but they do not offer the 
opportunity for any other activity besides just a token payment 
from the Federal Government.
    The Nevada Association of Counties, NACO, has a policy of 
no net loss of private land acreage in all of the counties, in 
order to protect the tax base. The Southern Nevada Land Act 
should make provisions for disposal of public lands to private 
lands of equal acreage or value within any particular county 
where private land acquisitions are made. There is no pressing 
need to increase the control of public lands in the Federal 
agencies within the State. These agencies are continually 
lacking funding to carry out their designated managerial roles. 
To increase their land holdings would only stretch the limited 
resources they presently have.
    The subject of the lands in Elko County that are available 
for sale has been brought up. I have seen a map, there are 
approximately 100,000 acres, which is designated as for sale. 
At the present time, I believe there is around 1,000 acres 
which is actually designated as being for sale, but those are 
only designated by the BLM, they are not on a nomination 
process such as we have here in the Southern Nevada Land Act 
where I can nominate a parcel of land for sale. So the process 
is very limited in Elko County as far as the sale of those 
parcels. And the ones that are, I think it is around 1,000 
acres total that is available presently in Elko County. And 
that is several parcels so they are very limited, very small 
parcels.
    Second, I would encourage the economic activity by 
privatization. All the tremendous economic activity in the last 
50 years in Nevada has been encouraged and made possible by 
private land base. Warehousing, gaming, mining are all 
dependent upon the availability of private land. Private land 
and the availability of water are the driving forces of 
economic viability and diversification.
    We just need to stop the piecemeal legislation. An 
excellent example of the cooperative land management 
legislation is the Alaska Native Claims Settlement Act and 
other legislation over the last 25 years, which provided for 
designation of specific scenic and wildlife resources as well 
as the designation of specific areas for economic development. 
All the people of Alaska were given the opportunity to use the 
resources, they have for years, and the varied legislation in 
Alaska since the early 1970s has proven to be a very workable 
vehicle to address the varied resources available. This format 
to apply to the Southern Nevada Land Act would be something to 
consider.
    Also, through the disposition of land to the State of 
Alaska, they have set up what is called a permanent fund. The 
term of a permanent fund was brought up for educational funding 
here. And the State of Alaska has a permanent fund from 
revenues derived from the State lands--it is not a Federal 
permanent fund but a state permanent fund--which apparently 
works very well.
    The lack of addressing some of this piecemeal legislation, 
the wilderness study areas is an excellent example of that. We 
have about 200,000 acres of that in Elko County and maybe half 
of that has been agreed to be yeah, that could have wilderness 
value, but the other 100,000 acres is just in limbo and has 
been for 20 years. So we just need to address it.
    The third area is recreational opportunities. The 
conversion of public lands to recreational uses at the same 
time, setting aside multiple use concepts for the land is a 
dangerous route to take. Several of the legislative acts in the 
last 50 years have provided private lands for southern Nevada 
while protecting specific parcels for recreation in the Tahoe 
Basin. I believe this is primarily the Burton-Santini Act and 
the designation of recreation in environmentally sensitive 
areas has in effect limited the public access to the lands for 
any use. A massive transfer of money to the Tahoe Basin has not 
led to a proportional increase in the availability of or access 
to the public land and the public lake.
    We have the example of Arrowhead Lake in California was 
brought up, which is an excellent example of that, which had 
led to the same exact thing in Tahoe Basin, which is a 
tinderbox ready to turn.
    We have a case in Elko County, which is Franklin Lake, 
which was a Federal/state purchase of a ranch about 12 or 15 
years ago, which part of that was designated to be increased 
access to the Ruby Mountains. It has not come about. The 
Federal Government says they need more access into the Ruby 
Mountains but yet they have had this designated for that many 
years and no action has been taken on it.
    The concept has been used to actually limit the access to 
specific areas. Recent legislation approving the increase of 
user fees for National recreation areas indicates a lack of 
funding for these facilities. These agencies are continually 
limited by funding restrictions and the lack of updating the 
recreational facilities that they are to serve. More private 
land-based recreation is a good alternative, and the use of 
Southern Nevada Land Act to enhance the recreational 
opportunities would be a great alternative.
    We all need to look at using Southern Nevada Land Act as a 
win-win solution to challenging land use issues in the next few 
years. Please do not let it continue to benefit only one small 
portion of the State while expropriating the economic resources 
of the other portions of the State.
    Thank you.
    [The prepared statement of Mr. Decker follows:]

            Statement of Donald J. Decker, Managing Member, 
                 Century Gold LLC, Spring Creek, Nevada

    Thank you for the opportunity to testify on this very important 
public land management legislation. I have chosen to live in and 
operate a business in Nevada for over 30 years. I have a Master of 
Science in geology from the Mackay School of Mines in Reno, and 
presently operate the second largest privately held mineral exploration 
firm in northern Nevada. I also serve on the Elko County Public Land 
Use Advisory Commission. I have been involved in public land issues all 
of my life.
    Nevada has been severely impacted by a multitude of piecemeal land 
management legislative decisions over the last 150 years. Several of 
these actions in recent years have addressed broadening the private 
land base in Southern Nevada, which has sustained the economic growth 
in that area for many years. The Southern Nevada Public Land Management 
Act (SNPLMA) offers a unique opportunity to address many public land 
management issues at one time, if we avoid the piecemeal approach of 
the past.
    SNPLMA provides a method to convert public lands to the private 
land base within the State. This is working very well for Clark County, 
and Southern Nevada. Through this act, the private land and water base 
that is required for any economic growth engine is being increased in 
Southern Nevada, while being decreased in the remainder of the State. 
This needs to be corrected in order to sustain the quality of life in 
all areas of the State.
RECOMMENDATIONS FOR CONSIDERATION:
1. CONVERT EXISTING PUBLIC LANDS IN ALL AREAS OF THE STATE TO PRIVATE 
        LANDS
    Presently over 85 percent of Nevada is public lands, which 
restricts the economic activity. The Nevada Association of Counties ( 
NACO ) has a policy of no net loss of private land acreage in all of 
the counties in order to protect the tax base. SNPLMA should make 
provisions for disposal of public lands to private lands of equal 
acreage or value within any particular county where private land 
acquisitions are made.
    There is no pressing need to increase the control of the public 
lands by the federal agencies within the State of Nevada. These 
agencies are continually lacking funding to carry out their designated 
managerial roles. To increase their land holdings would only stretch 
the limited resources further.
2. ENCOURAGE ECONOMIC ACTIVITY BY PRIVATIZATION
    All of the tremendous economic activity in the last 50 years in 
Nevada has been encouraged and made possible by the private land base. 
Warehousing, gaming, and mining are all dependent upon the availability 
of private lands. Private land and the availability of water are the 
driving forces for economic viability and diversification.
    An excellent example of cooperative land management legislation is 
the Alaska Native Claims Settlement Act and other legislation that has 
provided for designation of specific scenic and wildlife resources as 
well as designation of specific areas for economic development. The 
native people in Alaska were given the opportunity to use the resources 
they have on their lands to provide a more sustainable lifestyle. The 
varied legislation in Alaska since the early 1970's has proven to be a 
very workable vehicle to address the varied resources available. This 
format to apply the SNPLMA would be very beneficial.
3. RECREATIONAL OPPORTUNITIES
    The conversion of public lands to ``recreational uses'' at the same 
time, setting aside ``multiple use'' concepts for the land, is a 
dangerous route to take. Several of the Legislative acts in the last 50 
years have provided private lands for Southern Nevada, while protecting 
specific parcels for recreation in the Tahoe Basin. The designation of 
``recreation,'' or ``environmentally sensitive'' areas, has, in effect, 
limited the public access to the lands for any use. The massive 
transfer of money to the Tahoe Basin has not led to a proportional 
increase in the availability of, and access to, the public access to 
the lake.
    This concept has been used to actually limit the access to specific 
areas. Recent legislation approved the increase of user fees for 
National recreational areas and indicate the lack of funding for these 
facilities. These agencies are continually limited by funding 
restrictions, and the lack of updating of the recreational facilities 
they are to serve. More private land-based recreation is a good 
alternative, and the use of SNPLMA to enhance the recreational 
opportunities would be a great alternative.
    We all need to look at using SNPLMA for a Win-Win solution to 
challenging land-use issues in the next few years. Please do not let it 
continue to benefit only one small portion of the State, while 
expropriating the economic resources of other portions of the State.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Decker.
    I was particularly struck by the part where you said that 
you have a Master's Degree in geology from Mackay School of 
Mines.
    Mr. Decker. Good school.
    Mr. Gibbons. I guess we cannot all be perfect, since I 
share that commonality with you.
    Mr. Decker. Right.
    Mr. Gibbons. Let me just ask you a brief question. What I 
gathered from your testimony was that you said that acquisition 
of private land to put into public holdings oftentimes results 
in less access or denied access or no greater access to the 
public land. Especially you were talking about the Franklin 
Lake acquisition up in Elko County. Is that what you were 
saying that not always does acquisition by the government 
result in greater access?
    Mr. Decker. I believe that is true. I think Franklin Lake 
is a classic example of that, where the access was apparently 
to go forward.
    Another case is the Pequot Mountains where the 70,000 acres 
was traded out a few years ago, but there is no increase in the 
access, it is just the same as it was. Actually the road system 
to access most of the public lands, the Forest Service is a 
great example, are the county roads which are maintained by the 
county to provide access to that. So it does limit the access.
    Mr. Gibbons. Mr. Trippet, let me ask you, you have been 
around recreational vehicles, off-road, motorcycle riding for a 
little more than three decades. In your experience over those 
three decades, have you found the Federal land management 
agencies to be more or less recreation friendly than they were 
10 years ago?
    Mr. Trippet. Well, with respect to motorized recreation, 
the Federal agencies are much less friendly. One of the 
comments that I make at our Resource Advisory Council--because 
we have many points of view on that Council--is that over the 
past 30 years, the lands available to motorized recreation have 
shrunk and shrunk and shrunk. And my goal is to try to stop 
that shrinkage. And I do not want to deny the need for some 
wilderness areas, I do not want to deny some areas for 
exclusive use for hikers or equestrians, but we need some areas 
for some other recreation. So in a broad general statement, I 
would say the Federal agencies are less friendly to off-highway 
vehicle motorized use now than they were before.
    Mr. Gibbons. Is it just that they are concerned about the 
quality of the environment where a lot of off-road recreation 
takes place or are they refusing to provide alternatives? In 
other words, do they just want to restrict down your operating 
area to more and more smaller areas until they get to a zero 
point or do they say we are going to take 100 acres out of you 
here, you cannot operate here but we are going to let you 
operate on 100 acres over here? Is that what you experience?
    Mr. Trippet. The concept of no net loss that we apply here 
to Federal land in Nevada I also try to apply to off-highway 
vehicle recreation and I try to say that if the Federal 
agencies want to restrict us in one area or close another area, 
I say give us a different area to go to. Sometimes it is a 
function of the quality or the terrain in question. For 
example, Sand Mountain Recreation Area is a mountain of sand 
that ATVs and dune buggies like to ride on. To close or 
restrict part of that area, there really is not another similar 
area to open up. So that is a challenge.
    Mr. Gibbons. Well, I can see that if you restrict an area, 
you force the same number of people that were operating in a 
large area into a smaller operating arena, which does even more 
damage or wear and tear on the land by forcing that same number 
of people into a smaller and smaller arena.
    Mr. Trippet. Yeah, it concentrates the impact, absolutely. 
Some of that impact could be handled with appropriate 
management. There are tractors and devices that can smooth out 
the trails and to maintain the trails such that the impact is 
minimized. But again, that takes money.
    Mr. Gibbons. Mr. Decker, I wanted to step back to your 
testimony for a moment. Even though this hearing is about 
increasing the percentage of proceeds going to education, you 
mentioned something in your testimony that I just wanted to 
kind of go over and get onto the record, because you indicated 
that in the acquisitions or the sale of private property in 
northeast Nevada, that even though this was a ``willing seller/
willing buyer'' to the Federal Government, if you walked in and 
were willing to buy the property, you were not allowed to make 
the offer or to buy the property. Can you explain that a little 
more? This is a foreign concept to me. Why did that take place?
    Mr. Decker. Well, I may have been too late in the process, 
I am not sure. But I did ask the ranch if they had some other 
land available at that price, which was above, probably above 
market price, I think Realtors in the area could address that 
better, but I am not totally sure except maybe--the particular 
parcels I was interested in were in the top of the Santa Rosa 
range between Winnemucca and McDermott, along the drainages, 
and the Nevada First Corporation was selling them, but I do not 
believe it is a willing seller/willing buyer transaction. It is 
not at all a free market transaction. And I know the argument 
comes up that we cannot restrict the private property rights of 
a person, but if you really are supporting that private 
property rights, then it should be a willing seller/willing 
buyer, free market transaction.
    Mr. Gibbons. Let me ask one final question, Mr. Decker, and 
that is the difference between what benefits would accrue to a 
county from mineral resources on private land versus mining 
mineral resources on Federal lands? Do you have an idea or a 
concept that you could share with us?
    Mr. Decker. Well, I think the primary benefit to the county 
from the mining is obviously through the Net Proceeds in Mines 
tax which was a process which was put in place by the mining 
industry in the early 1980s, which is a tax on your net 
proceeds which goes to the State back to the counties. And I am 
sorry, I do not have the figures per acre in the county with 
me. I will get those.
    Mr. Gibbons. Would you? For the record, that would be 
great.
    Mr. Decker. I guess it would be probably about 5 percent of 
two billion dollars for the last couple of years that would go 
back to the State, but that is overall in the State.
    Other than that, of course there is tax revenue on the 
buildings and the land, ad valorem tax on the land. But many of 
the mining companies have moved and transitioned from public 
land to private land in the last 10 years, just because--part 
of that is the permitting process is easier on the private land 
and you have more control over what you are doing.
    I would estimate in at least Elko and Eureka Counties that 
probably 60 or 70 percent of the mining activity, economic 
mining activity, is probably on private lands and part of that 
has obviously been through the process of patenting mining 
claims which has--did proceed, but it is under moratorium now.
    Mr. Gibbons. Yes. So I guess the real issue is that there 
is a defined benefit for a county to have an operation on 
private land based on property tax basis versus an operation on 
public land which does not generate a tax base other than the 
net proceeds of mines royalty to the State which comes back to 
the county.
    Mr. Decker. Right, I think so.
    Mr. Gibbons. Well, gentlemen, I do not have any more 
questions for you at this point in time. I did want to again 
ask those same two questions, which I know you heard from the 
previous testimony about the confidence in whether land is 
better managed by the Federal Government or the State, county 
and local agencies. And the second question is does the State 
benefit, do the children of this state benefit in terms of 
education by having more public land and less private land, or 
vice versa?
    So if you could just sort of summarize your answer to those 
two statements and provide it back to me with the other 
information, Mr. Decker, that you were going to provide, I 
would appreciate that as well.
    I want to thank both of you for coming down to Las Vegas 
and taking time out of your busy schedule to help us better 
understand our job and what we are doing here. Your testimony 
has been very valuable, very helpful to the Committee as well. 
With that, we will excuse the second panel with a great deal of 
thanks.
    And we will call up the third and final panel, which is Bob 
Abbey, who is the Director of the Bureau of Land Management, 
the State of Nevada. Bob, it is always pleasure to have you 
here testifying with us. As you can see, you are all by 
yourself, that makes you the star of the show. While you are 
standing there, let me swear you in. Would you raise your right 
hand.
    [Witness sworn.]
    Mr. Gibbons. Let the record reflect that the witness 
answered in the affirmative.

         STATEMENT OF ROBERT V. ABBEY. STATE DIRECTOR, 
                NEVADA BUREAU OF LAND MANAGEMENT

    Mr. Abbey. For the record, my name is Bob Abbey, I am the 
State Director for the Bureau of Land Management here in 
Nevada.
    Once again, Congressman Gibbons, it is my pleasure to 
appear before one of your field hearings, in this case to 
discuss the Southern Nevada Public Lands Management Act of 
1998.
    Nevada's Congressional Delegation is commended for its 
vision and innovation in developing this law. This legislation 
allows the Bureau of Land Management to sell public lands in 
the Las Vegas Valley to meet the demands for community 
expansion and economic development, and to use these proceeds 
from these sales to address critical environmental and 
education needs in Clark County as well as other areas of the 
State. This legislation has been successful in bringing various 
groups together to address resourcing and growth issues in 
Nevada.
    Since you have already provided some basic background on 
the legislation, I will just kind of limit my comments along 
those lines, but as you pointed out, this legislation promotes 
competitive land sales that allow the public to have an 
opportunity to acquire public lands through competitive market 
auctions.
    I provided this Committee with a handout that highlights 
the various categories of expenditures that have been 
authorized under this Act and the dollar amounts approved to 
date in each of those categories. You have also already pointed 
out that 5 percent of all the revenues generated from the sale 
of these lands go to the State general education fund for the 
education of Nevada's schoolchildren. Ten percent goes to the 
Southern Nevada Water Authority to fund the infrastructure 
needed to help support the development resulting from land 
sales. And the remaining 85 percent is deposited into a special 
account and is available to be spent in six categories, which 
you have already identified.
    Since enactment of this legislation in 1998, the Bureau of 
Land Management and our partners have generated more than $690 
million by selling a little more than 5600 acres of public land 
at 15 public auctions, including nine oral auctions and six 
online auctions. The amount of revenues that have been 
generated certainly has far exceeded our original projections 
when the law first passed.
    Local government entities in Clark County determine both 
the sequence and timing of the lands that we offer for sale. 
Clark County and the cities of Las Vegas, North Las Vegas and 
Henderson agree on what parcels they would like to have us 
offer at these sales and then advise the Bureau of Land 
Management of their decisions and we try to accommodate their 
wishes.
    I wanted to spend a brief moment giving an overview of the 
full spectrum of the lands disposal program for the Bureau of 
Land Management here in Nevada. In addition to the lands that 
have been designated for disposal in the Southern Nevada Public 
Lands Management Act, the BLM has identified, as you heard from 
previous witnesses, approximately one million additional acres 
of land throughout the State, under other authorities, that are 
also available for disposal. These are lands that are 
designated for disposal into private ownership through a very 
public planning process that provides for community expansion 
and economic development. Recent disposal actions include the 
sale of approximately 7700 acres to the city of Mesquite under 
the Mesquite Lands Act. And we are working with that same city 
on conveyance of an additional 4500 acres of land near their 
airport.
    The BLM is offering for sale 13,500 acres under the Lincoln 
County Lands Act of 2000. Over the next several years, we also 
plan to offer for sale approximately 21,000 acres of land in 13 
Nevada counties outside of Clark County.
    In addition to providing much needed revenues to the State 
education fund, the Bureau of Land Management has conveyed land 
to communities throughout Nevada for schools and other 
facilities through the Recreation and Public Purpose Act. This 
legislation allows state and local governments and qualified 
nonprofit organizations to acquire public lands for schools, 
fire houses, municipal and law enforcement facilities, 
hospitals, churches, parks as well as fairgrounds. Over the 
past 15 years, the Bureau of Land Management has conveyed 
approximately 7500 acres in 105 areas throughout Nevada under 
the Recreation and Public Purpose Act. A significant number of 
R&PP transfers exist in Clark County which has the highest 
number of recreation and public purposes transfers, bureau 
wide, as throughout the nation.
    Additionally, the Clark County Public Lands and Natural 
Resources Act of 2002 directed the BLM to convey public lands 
to the city of Las Vegas for the development of low income 
housing, to establish a research and technology center at the 
University of Nevada at Las Vegas, to the Las Vegas 
Metropolitan Police Department for a shooting range and to the 
city of Henderson to expand the Nevada State College.
    Under the specific laws that have been supported, and in 
many cases authored by the Nevada delegation, the Bureau of 
Land Management is presently taking actions to dispose of 
approximately 100,000 acres of public land into private 
ownership to accommodate community growth and economic 
development. The partnership among Federal, state and local 
governments has been a good one and the public has truly 
benefited from the actions that have been taken today to 
implement the provisions of the Southern Nevada Public Lands 
Management Act as well as some of the other specific 
legislation.
    We believe that the lands which have been identified for 
acquisition through the first four rounds of the implementation 
of the Southern Nevada Public Lands Management Act will enhance 
the public's realty portfolio and provide an overall 
enhancement of their quality of life.
    Congressman Gibbons, again, we appreciate the opportunity 
to be here and I am willing to answer any questions that you 
might have.
    [The prepared statement of Mr. Abbey follows:]

         Statement of Robert V. Abbey, Nevada State Director, 
       Bureau of Land Management, U.S. Department of the Interior

    Thank you for the opportunity to participate in today's field 
hearing to discuss the Southern Nevada Public Lands Management Act of 
1998 (SNPLMA). Nevada's Congressional Delegation is to be commended for 
its vision and innovation in developing this law. SNPLMA allows the 
Bureau of Land Management (BLM) to sell public lands in the Las Vegas 
Valley to meet the demands for community expansion and economic 
development, and to use the proceeds from these sales to address 
critical environmental and educational needs in Clark County and other 
areas of Nevada. Decisions on land sales and acquisitions authorized by 
SNPLMA in concert with other applicable laws, and funding for special 
resource projects authorized under SNPLMA, involve critical input and 
coordination with local governments and related local entities. SNPLMA 
has been successful in bringing various groups together to address 
resource and growth issues in Clark County and elsewhere in the State.
Background
    SNPLMA promotes competitive lands sales that allow local interests 
to have an opportunity to acquire public lands through competitive 
market auctions. Because SNPLMA provides local governments the 
opportunity to participate in the selection of lands, and gives them 
the first right of refusal of lands to be used for public purposes, 
they are supportive of the Act.
    The allocation of SNPLMA proceeds from the sales of public lands 
subject to SNPLMA is specifically outlined in the law. Five percent of 
the funds go to the State General Education Fund for the education of 
Nevada's schoolchildren; ten percent goes to the Southern Nevada Water 
Authority to fund the infrastructure needed to support the development 
resulting from land sales under the Act; and the remaining 85 percent 
is deposited into a special account and available to be spent on the 
following activities:
    <bullet>  to acquire environmentally sensitive lands in the State, 
with an emphasis in Clark County;
    <bullet>  to support wildlife habitat initiatives through the Clark 
County Multiple Species Habitat Conservation Plan;
    <bullet>  to fund capital improvement projects at designated 
Federal recreation areas in Clark County;
    <bullet>  to develop parks, trails, and natural areas in Clark 
County;
    <bullet>  to implement conservation initiatives in Clark County; 
and
    <bullet>  to restore Lake Tahoe.
    Since enactment of SNPLMA in 1998, the BLM has generated more than 
$690 million by selling 5,635.56 acres of public land at 15 public 
auctions, including 9 oral auctions and 6 on-line auctions. The funds 
raised thus far have provided the Nevada General Education Fund with 
nearly $29 million; the Southern Nevada Water Authority with nearly $53 
million for new infrastructure; and over $473 million has been 
deposited into the special account for the purposes noted above. These 
disbursements do not include funds generated from recent land sales.
Land Sales
    Presently, approximately 49,000 acres of public land are within the 
disposal boundary designated by SNPLMA as amended by the Clark County 
Public Land and Natural Resources Act of 2002 (Public Law 107-282). The 
Clark County Act added approximately 22,000 acres of public land to the 
disposal boundary area. The BLM is currently developing an 
Environmental Impact Statement (EIS) to comply with the National 
Environmental Policy Act requirements for disposing of the additional 
lands. It is expected that this EIS will be completed in September 
2004.
    Local government entities in Clark County determine with BLM 
approval the sequence and timing of lands offered for sale through a 
process provided for in SNPLMA called ``joint selection.'' Clark County 
and the cities of Las Vegas, North Las Vegas, and Henderson agree on 
what parcels they would like to have offered for sale and advise the 
BLM of their decisions. The BLM believes that it is appropriate for 
local governments to drive the timing and amount of land that is placed 
on the market because local officials must determine if the 
infrastructure, zoning, and other requirements are in place to 
accommodate the development that will result once the lands are 
conveyed into private ownership.
    BLM contracts with the General Services Administration (GSA) to 
hold live auctions every six months. Last month the BLM sold an 
additional 733.75 acres of public land for $127.1 million. Parcels not 
sold at the live auction may be offered for sale on the Internet by 
GSA, or they may be offered at future live auctions.
    In addition to the land designated for disposal in the Las Vegas 
Valley under SNPLMA, the BLM has identified nearly 1 million additional 
acres of land throughout the State under other authorities that are 
also available for disposal. These are lands that are designated for 
disposal into private ownership through a public planning process that 
provides for community expansion and economic development in other 
areas of Nevada. To date, the BLM has sold 7,700 acres to the City of 
Mesquite under the Mesquite Land Act of 1986, and we are working with 
the City on the conveyance of an additional 4,500 acres of land. The 
BLM is offering for sale 13,500 acres under the Lincoln County Land Act 
of 2000. Over the next several years, the BLM also plans to offer for 
sale approximately 21,200 acres of land in 13 Nevada counties outside 
of Clark County.
    The Department of the Interior recently reorganized its land-
appraisal function and consolidated the Department's various appraisal 
functions within a newly developed Department office. This reform will 
provide unbiased land appraisals consistent with the public interest by 
increasing appraiser independence, making certain that appraisals meet 
recognized professional standards, and advancing conservation goals.
Expenditures from the Special Account
    Since implementation of SNPLMA in 1998, the Secretary has approved 
over $630 million in expenditures from the special account. Of that 
total, $207 million has been approved for acquisitions of 
environmentally sensitive lands, $153 million for capital improvements, 
$155 million for parks, trails and natural areas, $36 million for 
conservation initiatives, $44 million for Burton-Santini acquisitions, 
and $20 million for multi-species habitat conservation plans.
    On October 28, 2003, the Secretary of the Interior, in consultation 
with the Secretary of Agriculture, approved the fourth round of 
expenditures from the special account totaling nearly $376 million. In 
this most recent round, nearly $104 million is earmarked for 
development of 28 park, trail and natural area projects in partnership 
with local governments in Clark County, $118 million for capital 
improvements and $101 million for land acquisitions. Seventy-four 
percent of those expenditures will be made in Clark County.
    Some examples of on-going efforts and past successes that were 
funded using the special account include the following:
    Parks, Trails, and Natural Areas--To date, the special account has 
provided for over $155 million to park, trail, and natural area 
projects in Clark County. Funds are used to partner with local 
governments in Clark County to meet the increasing demand for outdoor 
recreation, protect significant resources, and link urban areas with 
public lands as part of a regional trail system. With the special 
account funds, Clark County purchased more than 750 acres of private 
lands that were inholdings within the proposed area for the Clark 
County Wetlands Park (Park). The County Departments of Comprehensive 
Planning and Parks and Recreation started the Park project in 1999. The 
Park encompasses about eight square miles along a seven-mile stretch of 
the Las Vegas Wash in the southeastern corner of the Las Vegas Valley. 
In addition to providing exceptional recreation opportunities for 
visitors, park improvements are helping to control erosion of the Las 
Vegas Wash, increase wildlife and plant diversity, and benefit Lake 
Mead by controlling erosion and sediment loading.
    Conservation Initiatives--Conservation initiatives are a new 
funding category under SNPLMA authorized by an amendment included in 
the Clark County Public Land and Natural Resources Act of 2002. Funds 
are used for the planning, implementation, and monitoring of projects 
that promote conservation on Federal lands through education and other 
means. Since passage of this law, over $36 million have been approved 
for expenditures benefitting Clark County in this category of 
activities. One of the first projects to be implemented was an 
educational outreach program for off-highway vehicle riders. Through a 
public awareness campaign, riders are being encouraged to stay on roads 
and trails to control dust and to protect sensitive areas and listed 
species such as the desert tortoise. Another conservation initiative 
recently approved is funding for the clean up of unauthorized desert 
dumping sites.
    Federal Recreation Areas in Clark County--The special account is 
also used to address capital improvement needs in Federally-managed 
areas within Clark County that receive high annual visitation. These 
areas include the BLM's Red Rock Canyon National Conservation Area, the 
National Park Service's Lake Mead National Recreation Area, the Forest 
Service's Spring Mountains National Recreation Area, and the Fish and 
Wildlife Service's Desert National Wildlife Refuge. Nearly $153 million 
from the special account has been approved to address capital 
improvements in these areas. BLM is using the special account to build 
an environmental education facility at Red Rock Canyon National 
Conservation Area to be operated in cooperation with Clark County 
Public Schools. The special account is also being used to fund a new 
visitor center for the Forest Service in the Spring Mountains National 
Recreation Area; archaeological excavation work by the Fish and 
Wildlife Service at the Desert National Wildlife Refuge; and the 
building of boat launch ramps and upgrades of campgrounds by the 
National Park Service at the Lake Mead National Recreation Area. This 
resource work and new facilities will enable Federal agencies to 
provide better visitor services for those who come to enjoy these 
exceptional recreation areas.
    Lake Tahoe Conservation--Within the SNPLMA land disposal boundary a 
smaller boundary also exists around land designated for disposal in the 
Burton-Santini Act of 1980. The proceeds from the sale of these lands 
are specifically designated for the purchase of land around Lake Tahoe. 
Since the enactment of SNPLMA, nearly $44 million has been made 
available for the purchase of land at Lake Tahoe. Additionally, the 
Fiscal Year 2004 Department of the Interior Appropriations Act (Public 
Law 108-108) contains an amendment to SNPLMA that authorizes $300 
million to be spent over the next eight years for project work to 
restore and preserve Lake Tahoe's water clarity.
    Acquisition of Environmentally-Sensitive Land--SNPLMA authorizes 
the Secretary of the Interior to expend revenue in the special account 
for the acquisition of environmentally-sensitive lands in Nevada with 
priority given to lands within Clark County. To date, four rounds of 
acquisitions have been completed. The nomination process is currently 
open for the fifth round of acquisitions. The BLM facilitates a 
nomination and selection process designed to provide for public input 
and to identify and prioritize land available from willing sellers. 
Acquisitions focus on supporting the recovery of threatened or 
endangered species, protection of riparian areas and associated species 
in the Virgin River, Muddy River, Lake Mead and Meadow Valley Wash, and 
enhancement of recreational opportunities.
    About one quarter of the fourth round of expenditures recently 
approved by the Secretary of the Interior are earmarked for the 
purchase of environmentally-sensitive lands or interests in lands 
throughout Nevada. While the Secretary of the Interior approved a 
considerable amount of land for purchase, she also directed the BLM to 
continue an aggressive land disposal program consistent with BLM land 
use plans.
    Multi-Species Habitat Conservation Plans--With significant growth 
and development occurring in Clark County, providing for the 
conservation of sensitive species is critical. SNPLMA has provided more 
that $20 million in funding for development of the Clark County Multi-
Species Habitat Conservation Plan. One of the projects recently 
approved by the Secretary of the Interior is the development of a 
strategy for conservation along the Virgin River to protect several 
Federally-listed fish species while allowing for property development 
and community growth.
Land for Education and Community Services
    In addition to providing SNPLMA funds to the Nevada General 
Education Fund from the sale of land, BLM has conveyed land to 
communities in Nevada for schools and other facilities through the 
Recreation and Public Purposes Act (R&PP). Through this Act, state and 
local governments, and qualified nonprofit organizations, are 
authorized use of the public lands for schools, fire houses, municipal 
and law enforcement facilities, hospitals, churches, parks, 
campgrounds, landfills, and fairgrounds. Over the past 15 years, the 
BLM has conveyed approximately 7,530 acres in 105 areas throughout 
Nevada under the R&PP Act. A significant number of R&PP transfers exist 
in Clark County, which has the highest number of R&PP transfers BLM-
wide.
    Additionally, the Clark County Public Land and Natural Resources 
Act of 2002 directed BLM to convey public land to the City of Las Vegas 
for the development of low-income housing; to establish a research and 
technology center at the University of Nevada, Las Vegas; to the Las 
Vegas Metropolitan Police Department for a shooting range; and to the 
City of Henderson to expand the Nevada State College.
Conclusion
    Under the various laws enacted to benefit Nevada, BLM is conveying 
almost 100,000 acres of public lands into private ownership to 
accommodate community growth and economic development in Clark County 
and elsewhere in Nevada. The BLM is pleased to join with State and 
local government partners to implement SNPLMA and to help address 
pressing needs in the State.
    Thank you again for the opportunity to appear here today to discuss 
SNPLMA and other land disposal actions in Nevada. I will be happy to 
answer any questions you may have.
                                 ______
                                 
    Mr. Gibbons. Director Abbey, thank you again. And first, I 
want to thank you for your service to the employees and to the 
people of this nation for what you do and the State of Nevada 
especially. I want to thank you because from someone who deals 
almost daily, day in and day out, with your staff and your 
employees, I think we have been more productive because of your 
leadership, and I want to thank you for that. I hope that that 
relationship will continue into the future as well.
    I have a question to put you on the spot right away, 
because you are one of my favorite witnesses that always comes 
to my Resource hearings. With regard to this proposal to 
increase the amount of proceeds that come out of the sale of 
public lands to go from five to say 35 percent for education, 
do you support that, or not?
    Mr. Abbey. I support, and the Secretary of Interior 
supports, the opportunity to work with the Nevada delegation 
and members of Congress to amend the Southern Nevada Public 
Lands Management Act to allow other uses for the funds that are 
being generated. Whether those uses would include an increase 
to the education school fund for Nevada or for additional funds 
that could be used to implement what we refer to as the Great 
Basin Restoration Initiative, to address some of our natural 
resource needs that we have in this State, to reduce the 
threats of catastrophic wildland fire, to address noxious weed, 
to provide additional management in some of these new areas 
where the public are discovering on a daily basis. We would 
certainly welcome the opportunity to work with the members of 
Congress on a possible amendment.
    Mr. Gibbons. You have been in this job long enough that 
that was the most beautifully obscure, bureaucratic answer that 
I have heard from you in a long time.
    [Laughter.]
    Mr. Gibbons. That was great.
    Mr. Abbey. You have given me plenty of practice lately.
    Mr. Gibbons. Well, let me ask--
    Mr. Abbey. Congressman Gibbons, if I could, in response to 
your direct question. School systems in Nevada as well as 
school systems throughout this nation are in dire need of 
additional funds. My daughter is a second grade school teacher 
in the State of Mississippi, she has been doing so for, this is 
her third year. And I am routinely reminded of the needs that 
the education systems have for additional funds. I am 
constantly amazed how much money, individual money, that our 
teachers are forced to use to buy school supplies and to 
provide other learning materials to the students because the 
school systems cannot afford that.
    So yes, do I believe that the school systems in Nevada need 
additional funds? I do. Do I believe school systems throughout 
this nation do need additional funds? I do.
    Whether or not the revenues from the Southern Nevada Public 
Lands Management Act is the best source for those funds, I 
think is up to further discussion.
    Mr. Gibbons. Well, let me also add that unlike Mississippi, 
Nevada has 87 percent of its land owned by the Federal 
Government, some counties are 98 percent owned by the Federal 
Government, one of them is 98.7 percent owned by the Federal 
Government which makes it far more difficult than any other 
state to deal with the revenue resource requirements, with the 
growth requirements that this state has. It is unique, Nevada 
is unique among all 50 states in terms of this ratio of private 
to public land being so disparate, its ratio of growth with the 
population demands that are coming in here, the impact of the 
urbanization--no other state is as urban as the State of 
Nevada. So the issue here is how do we with such a small 
taxpayer base, unlike Mississippi, unlike any other state, 
generate the revenues needed to be able to afford the education 
that is required by the Federal Government under the No Child 
Left Behind Act, without finding unique ways as we grow. It is 
one thing to be able to buy private property that is on the 
taxpayer rolls, to be able to build a school on. It is another 
thing to be able to buy private property just to put it in the 
government's coffers, which do not generate PILT, and you heard 
many of the witnesses here earlier talk about the fact that we 
get 22 cents per acre under PILT, on average. I do not know 
many school districts that can afford to build a school unless 
they have got millions of acres because it takes about three to 
six million dollars to build an elementary school today, that 
can afford to do that. Because we combine so many people in a 
small area, we never really end up generating the revenues from 
payment in lieu of taxes that would have been generated from a 
private tax base, private property tax base anyway.
    Let me ask a question that you heard either Assemblyman 
Carpenter or Commissioner Nannini talk about. It seems to be a 
speculator's paradise out there in northern Nevada, running 
out, buying some of these properties in advance. When you have 
identified them as being sensitive, they will go out and buy 
these properties, and according to either Assemblyman Carpenter 
or Commissioner Nannini, these properties are being purchased 
at or near fair market value and then turned around and sold to 
the Federal Government at an elevated price. Is that your 
experience? Are you seeing that? What is happening out there on 
the ground?
    Mr. Abbey. Congressman Gibbons, let me--and I will address 
that. I am not seeing a lot of that, we are seeing some of 
that.
    Mr. Gibbons. OK.
    Mr. Abbey. I will also say that while the Secretary of 
Interior has approved a little over $200 million under the 
first four rounds of expenditures for Southern Nevada Public 
Lands Management Act for land acquisitions in the State of 
Nevada, that to date, only 2200 or so acres have been acquired 
in those four-year periods. There have been projects that have 
been identified that encompass thousands of acres, $200 million 
has been approved by the Secretary for acquiring those 
properties, but in implementing the first four rounds, we have 
actually only acquired a little over 2200 acres. Now there are 
a lot of reasons for that too.
    Acquisitions and disposals are not easy tasks, by any 
means. We want to make sure that the American public is 
protected for any lands and resources that might come into 
Federal ownership, or in this case, public ownership. So there 
is an awful lot of clearance work that is done. We get into 
situations sometimes with surveys, hazardous materials, and 
then appraisals. We have worked through several of these issues 
to get to the point of doing an appraisal to determine what 
is--what we can offer under a fair market value transaction, 
only at that point in time to have the private landowner decide 
they do not want to participate. So we have had several of our 
projects that were identified in rounds one through three, when 
we get to the point of making an offer, the landowner decides 
it is not what they want.
    Mr. Gibbons. Let me go back to an issue that we talked 
about earlier because I want to talk about the inequity between 
urban counties and rural counties. It seems to me--and I do not 
know if you would agree with this, but we sell public land in 
Clark County that becomes very valuable, we are talking 
hundreds of thousands of dollars per acre for development, and 
then we take the money and purchase a ranch in Elko County, 
take it off the taxpayer rolls because of its desirability, by 
your agency or the Forest Service, and it seems to me that we 
are creating prosperity in Clark County at the expense of the 
rural counties by doing this. Does that seem equitable or fair?
    Mr. Abbey. We recognize that we have a responsibility to 
rural Nevada to ensure that we have a balanced lands program, 
that at the same times lands are being nominated and identified 
for possible acquisition by the Federal Government, the Bureau 
of Land Management through our land use planning processes and 
the authorities that are already vested to us by Congress, that 
we need to ensure that appropriate public lands that have been 
identified for disposal are thereby disposed of. Therefore, in 
some sense, whether you call it a no net gain or whether you 
call it a fair and equitable approach, we certainly have a 
responsibility to make sure that rural Nevada does not suffer 
because of this legislation.
    Mr. Gibbons. What I do not want to do is create a two tier 
system--Clark County against rural counties and rural counties 
against Clark County. That is absolutely something that I think 
we should never get into.
    Mr. Abbey. I agree.
    Mr. Gibbons. And I do not want to ever see our state 
feeling that we are enriching one area at the expense of 
another. This is why this whole issue is so important to us, 
because the education of a child in Elko County, who is 
dependent on far less land, taxable land, available each year, 
is just as important as the education of a child in Clark 
County. Having to represent those rural areas along with a lot 
of Clark County puts me right in the middle of that dispute.
    Let me ask a question, how much money currently sits in the 
Southern Nevada Public Lands Management Act today?
    Mr. Abbey. We have over a couple of hundred million 
dollars.
    Mr. Gibbons. Do you have a closer figure?
    Mr. Abbey. I can give you--
    Mr. Gibbons. So it is over 200 and some million.
    Mr. Abbey. Yes.
    Mr. Gibbons. OK.
    Mr. Abbey. Now again, there has been a need identified for 
all the monies that have been approved for expenditures. Over 
$100 million have been identified to local governments here in 
Clark County for parks, trails and natural areas. Nowhere else 
in the Nation does local governments have access to such monies 
as what local government here in Clark County has for parks, 
trails and natural areas.
    Mr. Gibbons. Do you think if we took 35 percent for 
education, increased it from five to 35 percent, that we would 
impact the ability of the Bureau of Land Management, under 
Southern Nevada Public Lands Management Act, to provide for 
parks and trails and the maintenance of those areas in Clark 
County?
    Mr. Abbey. I think it would limit the availability of funds 
to address the needs that have been identified to us. For 
example, even though we have not completed round five 
nominations, I have--
    Mr. Gibbons. But that is acquisitions. I am talking about 
O&M--
    Mr. Abbey. That is for all projects.
    Mr. Gibbons. That includes acquisitions and O&M.
    Mr. Abbey. Yes, sir.
    Mr. Gibbons. Let us just take the acquisitions out for a 
minute.
    Mr. Abbey. OK.
    Mr. Gibbons. Do you have enough money to do the O&M today?
    Mr. Abbey. For parks, trails and natural areas?
    Mr. Gibbons. Yes.
    Mr. Abbey. Based upon a draft list of proposals that I have 
seen from local government, from Clark County, I would say no.
    Mr. Gibbons. So you still want to spend the extra money on 
buying more land even though you cannot manage the operation 
and maintenance of the existing lands, parks, trails you have 
today.
    Mr. Abbey. Congressman Gibbons, I was referring back to 
parks, trails and natural areas that would be managed by local 
government, not necessarily acquisitions of more lands by the 
Federal Government. There is a wish list, and I use that term 
loosely, that have been completed and provided to me from local 
governments in Clark County for round five, which means we have 
not approved any expenditures for round five, in excess of $600 
million for parks, trails and natural areas in this county 
alone. We are not going to generate that much money during this 
next year.
    Mr. Gibbons. Well, next year. But over the life of the 
Southern Nevada Public Lands Management Act, I am sure that 
since we have already generated $670 million?
    Mr. Abbey. Thereabouts. Over the first four years.
    Mr. Gibbons. That those revenues would adequately cover the 
operation and maintenance of the parks, trails and public land 
wish list that you have got now.
    Mr. Abbey. Those monies would be available for development 
of parks, trails and natural areas, they are not available for 
maintenance and operations of those.
    Mr. Gibbons. And what is your estimated income expectation 
from the balance of the sale of lands in Clark County?
    Mr. Abbey. For the balance of the lands?
    Mr. Gibbons. Yeah, that have not been sold yet.
    Mr. Abbey. In excess of a billion dollars.
    Mr. Gibbons. Billion.
    Mr. Abbey. That is if we are not stopped by lawsuits or 
other possible actions.
    Mr. Gibbons. I guess what I am trying to do is get a sense 
of the equity here, understanding that we only allocate 5 
percent for education.
    Mr. Abbey. Yes, sir.
    Mr. Gibbons. We have got all this public land currently in 
your portfolio and inventory that have all of these 
requirements that you want to do, I mean they are needs and 
they are niceties and some of them--you know, it would be nice 
to gold-plate every faucet, but we cannot do that. I mean we 
have to prioritize and spend some things that, you know, that 
we think are reasonably necessary.
    Mr. Abbey. Yes.
    Mr. Gibbons. So we will not be able to do everything. If we 
stopped today, stopped buying land today--I agree with you in 
your statement that a lot of the monies that we have in this 
account could be used to rehabilitate burned areas of the 
State, to be able to go back in and do the maintenance, do the 
management and the operation of the current existing portfolio 
versus adding to that requirement without a steady stream of 
revenues that would, therefore, make those lands no better 
managed than they are today, and in some cases not as well 
managed as they are today under private ownership.
    I guess I struggle with the concept of going out and buying 
more land to put into Federal ownership without the ability, as 
you have indicated even in Clark County, to do the necessary 
O&M on these parcels that you have got identified. There is a 
breakdown, and maybe it is just me that I do not understand it, 
but my goal is to see how we can use the monies both to protect 
the land and acquire the land that is critically needed, 
absolutely must have for protection of sensitivity and wildlife 
habitat versus nice to do, wants and desires, and the education 
of the kids in this state as well, because when we sell public 
land here, we add more kids, 27,000 last year to the school 
system, 65 new schools are now on the list. And we are only 
giving 5 percent, we have only allocated 5 percent of the 
dollars to education. But yet we can think that providing them 
water at 10 percent is more important than giving them an 
education.
    So I have got some real equities that I want to deal with 
here and I just wanted the public to understand this, that my 
proposal in this is increasing the education fund from 5 
percent to 35 percent would mean $70 million out of the 
proposed amount that we have already spent, versus $29 million 
that is going to education. So what I am doing is just adding a 
little more to the education while still preserving you 55 
percent of the proceeds to do the things that you really are 
doing today.
    Mr. Abbey. I understand that.
    Mr. Gibbons. And that is what I gathered from Dr. Rulffes 
and Dr. Roberts as critical needs from some of our rural 
counties as well as our urban counties who are impacted by this 
whole process of selling a few acres here in Clark County, very 
valuable, very expensive, buying very large, very expensive 
ranches in rural counties. I am just trying to balance out some 
of the things we do in the Federal Government, you and I work 
for the same government.
    Mr. Abbey. You bet.
    Mr. Gibbons. And everybody has to benefit from what we do 
or they suffer from what we do. And we are just trying to bring 
the education of our kids into a higher priority.
    With that, let me see what else I might want to talk about. 
What is the department's priority right now when it comes 
between the operation and management of trails, parks, et 
cetera or the acquisition of new land? What is the priority?
    Mr. Abbey. The priority within the Department of Interior 
and the Bureau being an entity within the Department of 
Interior, is to maintain what we already have and to provide 
the services that the public demands and expects and deserves. 
The acquisition of additional properties is a plus and 
certainly the Secretary as well as all of us who benefit from 
the acquisition of additional lands in the State of Nevada are 
also concerned about our ability to provide the appropriate 
management of any additional lands that may come into the 
public portfolio.
    At the present time, we do not have access to these 
revenues that are generated from land sales in Southern Nevada. 
So all management funds, with the exception of Clark County, 
our Federal lands in Clark County, all management funds would 
have to come through the appropriations process.
    Mr. Gibbons. So when you buy property in Elko or Eureka, 
you do not have the management fund stream coming to you to 
manage those lands, but you do in Clark County where you 
acquire private lands for sensitive natures because we have 
Southern Nevada Public Lands Management Act, which then creates 
that revenue stream for O&M for the lands down here in Clark 
County.
    Mr. Abbey. That is true.
    Mr. Gibbons. So would you support then a Northern Nevada 
Public Lands Management Act where we used the monies to do the 
same or similar activities in northern--well, let us just say 
everywhere outside of Clark County?
    Mr. Abbey. Due to your leadership and many others in 
Congress, the Congress did approve the Federal Land 
Facilitation Act, which included the BOCA authority, I think a 
couple of years ago. That in itself provides us the authority 
to dispose of lands that have been identified in our existing 
land use plans as available for disposal with up to I think it 
is 80 percent of the funds being returned back to the State 
where that land is sold. So we already have some authorities 
that exist today to allow us to dispose of properties and to 
recoup some of the revenues to pay for the cost of those 
properties.
    We were using that authority to dispose of the property in 
Douglas County that we offered for sale and actually sold. The 
consummation of that transaction is on hold pending the outcome 
of a lawsuit that Carson City filed against the Bureau of Land 
Management. We were quite interested in selling that property 
because it would bring sufficient revenue into our account that 
would allow us to provide greater emphasis in rural Nevada to 
sell lands that we had identified for disposal. You have heard 
testimony from folks from Elko County, we have identified about 
800 acres for sale this year and we are working on another 1200 
acres in Elko County alone for sale in the very near future. We 
were going to use the monies that were generated from that land 
sale in Douglas County to offer those lands as well as other 
lands in rural Nevada for sale.
    Now there is not a lot of market for some of the lands that 
have been identified for disposal. Some of them, as you heard, 
are in remote areas and probably the only one that might have 
an interest in acquiring those lands might be the grazing 
permittee.
    Now when we go through the process of disposing of land, we 
again have to do the clearances, the cultural clearances, the 
threatened and endangered species clearances, the survey 
checks, the appraisal, it is a very expensive process. Some of 
the lands that we have identified in these remote areas would 
cost us more to dispose of than the revenues that would be 
coming in from the sale. Nevertheless, we understand the 
responsibility we have for a balanced lands program and we are 
willing to make that commitment to go forward and to take 
greater actions and place greater emphasis on disposals, if we 
had a source of revenues that we could use to sell those 
properties.
    Mr. Gibbons. The amount of land that you sold in Douglas 
County, how many acres was that?
    Mr. Abbey. Congressman, I do not know the exact figure, but 
I can certainly get that to you. I think it was something in 
the neighborhood of 1200 acres or so, but I would have to get 
that back to you.
    Mr. Gibbons. All right. Let me ask just a final question. I 
want to get your thoughts, when you heard Mr. Decker talk about 
earlier the permitting complications in the mining industry on 
public lands and the requirement oftentimes that a permittee, 
in order to be able to get a permit issued, is asked to go out 
and buy a ranch or something else, just to get a permit. You 
heard him testify to that.
    Mr. Abbey. I did.
    Mr. Gibbons. What would be your recommendations in 
situations like that?
    Mr. Abbey. Well, I would have to say that I do not believe 
that that is the case. Certainly under the 1872 mining law, 
anyone can go out and stake a claim on public lands that have 
not been withdrawn from the mining law. And therefore, if they 
have a discovered mineral, then they have the right to mine 
that property and it does not require any kind of land exchange 
with the Bureau of Land Management or any other requirements 
that we would place on that individual. What they would do if 
they have a discovered mineral is provide us with a mining plan 
of operation which would describe the operation that they would 
undertake to mine that mineral resource. At that point in time, 
we would do an environmental impact statement and issue a 
decision, you know, approving the mine or making modifications 
or, in very rare instances, denying the mining plan of 
operation.
    So again, I did hear the testimony, I do not believe that 
is the case.
    Mr. Gibbons. Well, I just would like to add that I have 
heard from several mining companies--now whether it is the 
Forest Service and not the BLM, but they were required, in 
order to obtain a permit--the final phase was that they had to 
go out and buy a portion of land, offer that trade to the 
Federal Government in exchange for part of the permitting 
process.
    Mr. Abbey. The only thing that I could think of--
    Mr. Gibbons. I do not know why they would say that if it 
were not a reality that they had experienced.
    Mr. Abbey. Well, there are a couple of examples of where 
companies have purchased ranches. Again, it is primarily for 
water issues. Either they need additional water rights for 
mining purposes of they need a place for dewatering purposes.
    Mr. Gibbons. Sure.
    Mr. Abbey. And I certainly am well aware of some of the 
mining companies going out and buying fairly large ranches and 
then using those lands and resources for dewatering purposes.
    The only other exception that I could think of would be 
where there may be some offsite mitigation requirements due to 
threatened and endangered species habitat or whatever the case 
may be, or cultural resources, where there could be, through 
the decision process, a requirement for offsite mitigation. 
That in itself might lead to acquisition of a property by a 
mining company, but I do not know of too many specifics along 
those lines.
    Mr. Gibbons. Is there a requirement in the permitting 
process under 1872 mining law to do offsite mitigation?
    Mr. Abbey. There is not. In fact, we try to mitigate 
onsite. Off-site mitigation is the exception rather than the 
norm.
    Mr. Gibbons. Perhaps that is what we have.
    Mr. Abbey. The way we would deal with that is through a--
    Mr. Gibbons. Let me ask just one--I said one final question 
and I keep asking more questions--you are oftentimes, in the 
sale of these lands that you identified, blocked by litigation, 
people who are opposed to the Federal Government selling the 
land for one reason or another, are blocked and that land sale 
gets either stopped--well, it does get stopped until a 
resolution of the lawsuit and oftentimes is prevented from ever 
occurring because of the delay, it means that the value and the 
requirement for why it is there disappears.
    If I were an individual, an entity, nonprofit organization, 
anything, could I come in and file a lawsuit against you for 
buying a piece of land?
    Mr. Abbey. I think anybody can sue people for any reason.
    Mr. Gibbons. And would that stop you?
    Mr. Abbey. We would defend our actions in court. We would 
believe that we have the authority and the right to acquire 
properties that we believe would benefit the American public.
    Mr. Gibbons. Sure. But it can go both ways. We can stop you 
from buying and you can be stopped from selling by the 
institution of litigation, which happens.
    Mr. Abbey. Which happens. We would probably pursue the 
acquisition even though a lawsuit has been filed, unless the 
Judge issued a restraining order.
    Mr. Gibbons. Do you do the same with a sale?
    Mr. Abbey. We have.
    Mr. Gibbons. Is it your policy to proceed forward with a 
sale absent an injunction from a Federal court?
    Mr. Abbey. Yes, it is. In fact, every land sale that we 
have proposed to date under the Southern Nevada Public Lands 
Management Act has been litigated.
    Mr. Gibbons. Every one of them.
    Mr. Abbey. And we have gone forward with the sale.
    Mr. Gibbons. Mr. Abbey, you have, as usual, impressed all 
of us with your wit and wisdom, and certainly help us better 
understand this and we appreciate the time you have taken to 
become one of our regulars before this Committee.
    I want to thank you, I want to thank all the witnesses 
today. That is the end of my remarks and the end of this 
hearing. We are actually a little bit over in terms of 
utilization of this building. Today's hearing will remain open 
for 10 days, as I indicated.
    I want to welcome all of the citizens here to submit 
written comments on this issue. You can submit them to the 
Committee and they will be incorporated into the record.
    I would like to thank our clerk over here, who is Casey 
Hammond, with the Committee on Resources, and Casey, can you 
raise your hand? Thank you. If you have a question about the 
Committee's activities or address, get in touch with Casey over 
here and he will give you the information you need to get your 
comment in to the Committee, and the addresses to us.
    And I want to welcome again your comments to our district 
offices as well here in Elko County for the Second 
Congressional District--I should have said Clark County--or 
Elko or Reno as well.
    And finally, before I bring the gavel down, let me thank 
again Mark Robertson as well as Steven Long for our Pledge of 
Allegiance and the invocation that was given at the beginning.
    With that, there are no further questions, this Committee 
hearing is ended. Thank you.
    [Whereupon, at 12:17 p.m., the Subcommittee was adjourned.]


    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Porter follows:]

  Statement of The Honorable Jon Porter, a Representative in Congress 
                        from the State of Nevada

    Good morning. I would like to thank Congressman Gibbons for holding 
this field hearing in Las Vegas today on the dispensation of funds from 
the Southern Nevada Public Lands Management Act, and for his diligence 
and hard work for the people of Nevada. It is an honor to serve as his 
colleague in the House of Representatives, and I appreciate the 
tremendous work he has done regarding public lands in our great state. 
I would also like to thank Chairman Radanovich and the distinguished 
members of the House Resources Committee for coming to Southern Nevada 
to examine this important issue. I look forward to hearing comments 
from the many notable public officials and citizens that have come 
today to offer their input. It is wonderful to have so many people 
gathered here today working for Nevada.
    As you know, in 1998 Congress enacted the Southern Nevada Public 
Lands Management Act (SNPLMA). While I was not yet a member of Congress 
when this law was enacted, I have witnessed the immense benefits this 
legislation has provided to Southern Nevada. As of October 31, 2003, 
almost $700 million has been generated from BLM land sales. Recently, 
Secretary of the Interior Gale Norton announced the approval of nearly 
$385 million for projects in Southern Nevada. Recommendations including 
$104 million for the development of 28 park, trail, and natural area 
development projects in Clark County, $36 million for conservation 
initiatives, $16 million for continued development of the Clark County 
Multiple Species Habitat Conservation Plan, $118 million for 39 capitol 
improvement projects at Lake Mead National Recreation Area (NCA), Red 
Rock Canyon NCA, Spring Mountain NCA, and the Desert National Wildlife 
Refuge, and $111 million for 53 acquisitions of environmentally 
sensitive lands in Nevada to provide recreation opportunities, protect 
endangered species habitats, and protect important cultural values.
    The incredible growth that has taken place in Clark County has 
raised unique issues regarding our public lands and the Southern Nevada 
Public Lands Management Act. The growth of Clark County has been 
significant, and is a tribute to the leadership of our elected and 
Administration officials, the hard work and dedication of local 
developers, and the economic success of the Las Vegas region.
    Since the passage of the SNPLMA, we have been able to ensure the 
organized, strategic and orchestrated growth of our southern Nevada 
community, while still maintaining and preserving many of Nevada's 
environmental treasures and resources. This growth, while positive, has 
created and placed new and increased pressures on our existing precious 
resources, such as infrastructure, education and water. Since my 20 
years in public office, I have seized opportunities to better manage 
this growth and the responsibilities and liabilities it brings. I 
believe growth should pay for growth. As we undergo the process of 
reviewing this legislation and looking for opportunities to improve 
upon the original Act of 1998, I would support a provision to allow 
more of the proceeds from the sale of public lands to go to state and 
local governments to help meet the growing needs of our community as a 
result of the privatization of our federal lands in southern Nevada. I 
am interested in hearing the opinions offered today and am open to 
examining this legislation in order to improve the benefits it offers 
to the citizens of Nevada.
    I look forward to following the example set by the other leaders of 
our great state by continuing to protect our public lands and preserve 
our natural resources while maintaining Nevada's long tradition of 
economic growth. I look forward to continuing to work closely with 
Congressman Gibbons, Chairman Radanovich, my fellow members of Nevada's 
Congressional Delegation, members of the House Resources Committee, and 
distinguished community officials and leaders to examine this important 
legislation.

                                 <all>

</pre></body></html>
